<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]




 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:32 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Begich, Kirk, Hoeven, and 
Johanns.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

STATEMENT OF HON. DENNIS McGINN, ASSISTANT SECRETARY OF 
            THE NAVY FOR ENERGY, INSTALLATIONS AND 
            ENVIRONMENT
ACCOMPANIED BY:
        VICE ADMIRAL WILLIAM FRENCH, COMMANDER, UNITED STATES NAVY 
            INSTALLATIONS COMMAND
        MAJOR GENERAL JUAN AYALA, COMMANDER, UNITED STATES MARINE CORPS 
            INSTALLATIONS COMMAND, AND ASSISTANT DEPUTY COMMANDANT, 
            INSTALLATIONS AND LOGISTICS, UNITED STATES MARINE CORPS

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Good afternoon. This hearing will come to 
order.
    I welcome everyone to today's hearing to discuss the 
President's fiscal year 2015 budget request for military 
construction (MILCON) and family housing for the Departments of 
the Navy and the Air Force.
    We will have two panels of witnesses today. The first 
panel, representing the Navy, includes the Hon. Dennis McGinn, 
Assistant Secretary of the Navy for Energy, Installations and 
Environment; Vice Admiral William French, Commander, Navy 
Installations Command; and Major General Juan Ayala, Commander, 
Marine Corps Installations Command, and Assistant Deputy 
Commandant for Installations and Logistics.
    We welcome you to this hearing, and we look forward to your 
testimony.
    The keyword we have heard over and over in discussing the 
President's fiscal year 2015 MILCON request is ``risk.'' The 
Department of Defense (DOD) and each of the services have 
acknowledged that in order to meet fiscal year 2015 defense 
budget constraints, MILCON has been the prime target of cost-
cutting measures.
    As a result, the DOD's fiscal year 2015 MILCON request is 
more than 40 percent below the fiscal year 2014 request. This 
is troubling for all of the services, but it is particularly 
worrisome for the Navy and Marine Corps, which face a bow wave 
of MILCON requirements over the next few years to meet new 
mission requirements aligned with DOD's pivot to the Pacific 
area of responsibility.
    The Navy's Future Years Defense Program, or FYDP, which 
includes the Marine Corps, projects a MILCON expenditure of 
well over half a billion dollars in fiscal year 2017 and 2018 
to accommodate the buildup in the Pacific. This will only make 
it more difficult to play catch-up ball with current and 
emerging mission requirements not only in the United States but 
also in other critical overseas locations.
    These include Africa, where the only U.S. enduring location 
is Camp Lemonnier in Djibouti; Europe, where Sigonella Naval 
Air Station in Sicily is the jumping-off point for emerging 
North Africa operations; and Southwest Asia, where the Bahrain 
naval base is the headquarters of the Navy's Fifth Fleet.
    As I have noted before, we all understand the imperative of 
maintaining the operational readiness of our military forces. 
MILCON, as well as facility sustainment, restoration and 
modernization, or FSRM, is an easy target because facilities do 
not decay overnight. But MILCON provides the foundation for the 
training of forces and maintenance of equipment that leads to 
operational readiness.
    Without sustained and adequate investment in MILCON and 
FSRM, at some point, readiness will be compromised. And this 
does not scratch the surface of quality-of-life MILCON 
investments, such as barracks, schools, hospitals, and child 
care centers, which tend to be the first causalities of a lack 
of MILCON investment.
    I look forward to discussing how the Navy is planning to 
accommodate these compelling and competing requirements in what 
promises to be an extended period of constrained defense 
spending.
    I now turn to my ranking member, Senator Kirk, for any 
opening statements he cares to make.
    Senator Kirk.

                     STATEMENT OF SENATOR MARK KIRK

    Senator Kirk. Thank you, Mr. Chairman.
    I will note that, unfortunately, this is the last hearing 
of this kind that you will chair for a while. I wanted to 
directly thank you for all your work with me on the stroke 
agenda, an affliction that you and I know all too well.
    You should really be commended by all parties in the 
Congress for your 10-point plan to eliminate the VA disability 
backlog, which will do a lot to really support those who have 
given nearly their all for their country and suffered a 
disability on Active Duty.
    Over to you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Kirk.
    I remind our witnesses that their prepared statements will 
be placed in the record, so I encourage you to summarize your 
remarks.
    Secretary McGinn, I understand that yours will be the only 
oral statement. Please proceed.

                SUMMARY STATEMENT OF HON. DENNIS MCGINN

    Mr. McGinn. Thank you, Mr. Chairman, Senator Kirk, and 
members of the subcommittee. I am pleased to appear before you 
today to provide an overview of the Department of Navy's 
investment in its shore infrastructure.
    Before I begin, I would like to thank the subcommittee for 
your swift approval of the Washington Navy Yard reprogramming 
request. This project is critical to restoring a sense of 
normalcy for our workforce by allowing them to return to the 
Navy Yard as soon as practicable.
    We were able to award the construction contract back in 
January and anticipate returning to the Navy Yard in April 
2015.
    Thank you, sir.
    From our Nation's infancy, the United States Navy and 
Marine Corps team has operated far from our shores to protect 
our vital security and our economic interests. Forward presence 
is no less important today than it was in 1802 when Congress 
authorized President Jefferson to ``employ such of the armed 
vessels of the United States as may be judged requisite for 
protecting effectually the commerce and seamen thereof on the 
Atlantic Ocean, the Mediterranean and adjoining seas.''
    The nature of today's threats, however, are far more lethal 
and insidious than 200 years ago.
    Our Navy and Marine Corps must be manned, trained, and 
equipped to deter and respond to belligerent actors wherever, 
whenever, and however they may strike.
    Yet the fiscal imperative to reduce the Nation's debt and 
control the deficit introduces additional complexity as the 
Department strives to strike the right balance of resources, 
risk, and strategy.
    The Department of the Navy's President's budget request for 
fiscal year 2015, while supporting the 2014 Quadrennial Defense 
Review, comes at a price to the shore establishment.
    Fortunately, investments made in prior years, including 
this one, will enable the Department to achieve forward 
presence without undermining the shore establishment in the 
near term.
    The Department is requesting $10.5 billion in various 
appropriations accounts, a reduction of $1.6 billion from 
amounts appropriated for this year, 2015, to operate, maintain, 
and recapitalize our shore infrastructure.
    While the overall fiscal year 2015 budget request 
represents an appreciable reduction from previous years, it 
does demonstrate continued investment to enhance combatant 
commanders' capabilities, continues to support the introduction 
of new weapons systems and platforms, and maintains 
servicemember and family quality-of-life, at the same time 
recapitalizing critical aging infrastructure.
    The 2015 budget also manifests the Department's commitment 
to energy security by funding cost-effective efforts that will 
improve our energy infrastructure and reduce our consumption 
and costs.
    I look forward to working with you to sustain the 
warfighting readiness and quality of life for the most 
formidable expeditionary fighting force in the world.
    Thank you for the opportunity to testify before you today 
and I welcome your questions.
    [The joint statement follows:]
                        Prepared Joint Statement
                                   by
  Hon. Dennis V. McGinn, Assistant Secretary of the Navy for Energy, 
                     Installations and Environment
 Vice Admiral William D. French, Commander, Navy Installations Command
                                  and
  Major General Juan G. Ayala, Commander, Marine Corps Installations 
                                Command
    Chairman Johnson, Senator Kirk, and members of the subcommittee, I 
am pleased to appear before you today to provide an overview of the 
Department of the Navy's (DON's) investment in its shore 
infrastructure.
 the challenge of ``forward presence'' & achieving balanced investments
    From our Nation's infancy, the United States Navy and Marine Corps 
Team has operated far from our shores to protect our vital security and 
economic interests. ``Forward presence'' is no less important today 
than in 1802 when Congress authorized President Jefferson to ``employ 
such of the armed vessels of the United States as may be judged 
requisite . . . for protecting effectually the commerce and seamen 
thereof on the Atlantic ocean, the Mediterranean and adjoining seas.'' 
The nature of today's threats, however, is far more lethal and 
insidious than two hundred years ago. The means and methods available 
to those who wish us harm range in sophistication from advanced nuclear 
and cyber weaponry to improvised explosive devices detonated by cell 
phone. Our Navy and Marine Corps must be manned, trained, and equipped 
to deter and respond to belligerent actors wherever, whenever, and 
however they strike.
    Yet the fiscal imperative to reduce the Nation's debt and control 
the deficit introduces additional complexity as the Department strives 
to strike the right balance of resources, risk, and strategy. The DON's 
President's budget for fiscal year 2015 (PB 2015) supports the 2014 
Quadrennial Defense Review, which embodies key elements of the 2012 
Defense Strategic Guidance and is informed by the Strategic Choices and 
Management Review completed last year. Fortunately, prudent 
infrastructure investments made in prior years will enable the 
Department to achieve forward presence without undermining the shore 
establishment in the near term. We welcome the additional flexibility 
Congress provided in the Balanced Budget Act of 2013, but challenges 
remain.
                    investing in our infrastructure
Overview
    Our installations provide the backbone of support for our maritime 
forces, enabling their forward presence. The Department is requesting 
$10.5 billion in various appropriations accounts, a reduction of $1.6 
billion from amounts appropriated in fiscal year 2014 to operate, 
maintain and recapitalize our shore infrastructure. Figure 1 provides a 
comparison between the fiscal year 2014 enacted budget and the PB 2015 
request by appropriation.


                              FIGURE 1. DON INFRASTRUCTURE FUNDING BY APPROPRIATION
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal
                                                                   Year 2014    PB 2015
                            Category                                enacted      ($M)     Delta ($M)   Delta (%)
                                                                     ($M)
----------------------------------------------------------------------------------------------------------------
Military Construction, Active + Reserve.........................       1,659       1,070        -589      -35.5%
Family Housing, Construction....................................          73          16         -57      -78.1%
Family Housing Operations.......................................         379         354         -25       -6.6%
BRAC \1\........................................................         145          95         -50      -34.5%
Sustainment Restoration & Modernization (O&M)...................       2,545       2,135        -410      -16.1%
Base Operating Support..........................................       7,015       6,590        -425       -6.1%
Environmental Restoration, Navy.................................         316         277         -39      -12.3%
                                                                 -----------------------------------------------
      Total.....................................................      12,132      10,537      -1,595      -13.1%
----------------------------------------------------------------------------------------------------------------
\1\ Prior funds will also support fiscal year 2015 BRAC activities.


    While the overall fiscal year 2015 budget request represents an 
appreciable reduction from previous years, it demonstrates continued 
investment to enhance Combatant Commanders' capabilities, continue 
support for the introduction of new weapons systems and platforms, 
maintain servicemember and family quality of life, and recapitalize 
aging infrastructure. The fiscal year 2015 budget also manifests the 
Department's commitment to energy security by funding cost effective 
efforts that will improve our energy infrastructure and reduce our 
consumption.
Military Construction
    Our fiscal year 2015 President's budget request of just over $1 
billion supports several key objectives of 2014 Quadrennial Defense 
Review. For instance, the Navy and Marine Corps are investing 
approximately $181 million to enhance warfighting capabilities in the 
Asia-Pacific region including: facilities that will support current and 
future Marine Corps training requirements on Guam ($51 million); 
modifications to existing facilities that enables the Marine Corps to 
relocate its unmanned aerial vehicle squadron to Marine Corps Base 
Hawaii ($51 million); and a submarine training facility at Joint Base 
Pearl Harbor-Hickam, Hawaii ($9.7 million).
    Additionally, the Navy is investing over $80.3 million in projects 
such to support the basing of the new P-8A Poseidon in Washington State 
($24.4 million) and Florida ($21.7 million) that will ensure the United 
States remains capable of projecting power in anti-access and area 
denial environments. The fourth and final increment of the Explosive 
Handling Wharf ($83.8 million) at Naval Submarine Base Bangor and the 
Transit Protection System at Port Angeles ($20.6 million), both in 
Washington State, support the objective of maintaining a safe, secure, 
and effective nuclear deterrent. Finally, the Department is investing 
$81 million in laboratories and testing facilities to sustain key 
streams of innovation and maintain our technological advantage over 
potential adversaries.
    The Department continues efforts to reduce our energy costs. The 
fiscal year 2015 request includes $47 million to decentralize steam 
plants at Naval Base San Diego, installing new gas-fired energy 
efficient space and domestic water-heating systems for 10 piers and 
approximately 45 buildings. Additionally, the Department will benefit 
from nearly $55 million in energy and water conservation projects 
funded through the Defense-Wide Energy Conservation Investment Program. 
These funds will increase sources of cost effective renewable energy 
($14.6 million); improve water conservation efforts ($2.4 million); and 
increase energy efficiency in many other locations ($30.7 million). 
While the Department plans to invest another $271 million of operations 
and maintenance funding in shore energy projects; however, the 
reduction of $930 million in SRM/O&M and Base Operating Support (Figure 
1 above) from the fiscal year 2014 levels--and compounded by the fiscal 
year 2013 sequester--will make the statutory energy intensity goals 
more difficult to achieve. Moreover, reduced investments in energy 
projects now will result in lost opportunity for savings in the future, 
higher utility costs and, ultimately, reduced readiness as funds are 
diverted to pay these bills.
Facilities Sustainment, Restoration and Modernization (FSRM)
    The Department of Defense uses a Facilities Sustainment Model to 
calculate life cycle facility maintenance and repair costs. Using 
industry-wide standard costs for various types of buildings and 
geographic areas, the model is updated annually. Sustainment funds in 
the operation and maintenance accounts are used to maintain facilities 
in their current condition. The funds also pay for preventative 
maintenance, emergency response to minor repairs, and major repairs or 
replacement of facility components (e.g. roofs, and heating and cooling 
systems).
    The Navy budgeted $1.3 billion (70 percent of the model) in fiscal 
year 2015, an increase of $62 million (7 percent) enabled by the 
additional topline provided in the Balanced Budget Act of 2013. The 
Marine Corps funds sustainment at 75 percent of the model ($498.8 
million), dropping below the DOD goal for the first time since the 
criteria was established. Both Services will manage the risk to its 
shore infrastructure by prioritizing work to address life-safety issues 
and mission-critical facilities in poor condition.
    Restoration and Modernization provides major upgrades of our 
facilities. In fiscal year 2015, the Department of the Navy proposes a 
total investment of $1 billion to restore and modernize existing 
infrastructure: $427 million in Military Construction projects, $361 
million in Operation and Maintenance funds, and $216 million in Working 
Capital funds.
                        investing in our people
Overview
    The strength of our Navy-Marine Corps team lies not in advanced 
weaponry or faster, stealthier ships and aircraft. Our naval forces 
derive their strength from the sailors and marines who fire the weapon, 
operate and maintain the machinery, or fly the plane, and from the 
families and civilians supporting them. We continue to provide the best 
education, training, and training environments available so our forces 
can develop professionally and hone their martial skills. Providing 
quality of life is a determining factor to recruiting and retaining a 
highly professional force. To this end, we strive to give our people 
access to high-quality housing, whether government-owned, privatized, 
or in the civilian community, that is suitable, affordable, and located 
in a safe environment.
Training and Education
    Of the $1 billion request for military construction, the Navy and 
Marine Corps together have programmed over $301 million in operational 
and technical training and academic facilities. For example, the Navy 
will construct facilities to support training for the Littoral Combat 
Ships homeported at Naval Station Mayport ($20.5 million) and will 
continue efforts begun in fiscal year 2014 to accommodate increased 
student loading at the Nuclear Power Training Unit in South Carolina 
($35.7 million). Finally, the Department will construct a Cyber 
Securities Studies Building ($120.1 million) at the U.S. Naval Academy 
to develop sophisticated and technically savvy Navy and Marine Corps 
officers able to leverage our strategic advantage in the cyber domain.
Unaccompanied Housing
    The Navy plans to make $35 million in operations & maintenance-
funded repairs to its bachelor housing inventory, focusing on the 
barracks in the worst condition. The Marine Corps completed its program 
of substantial investment in unaccompanied housing in support of the 
Commandant's Barracks Initiative. Its fiscal year 2015 investment will 
provide new berthing facilities at Naval Weapons Station, Yorktown, 
Virginia, enabling the Marine Corps Security Force Regiment and its 
Fleet Antiterrorism Security Teams to continue consolidating various 
elements that are dispersed within the Hampton Roads area.
Family Housing
    The Department continues to rely on the private sector as the 
primary source of housing for sailors, marines, and their families. 
When suitable, affordable, private housing is not available in the 
local community, the Department relies on government-owned, privatized, 
or leased housing. The fiscal year 2015 budget request of $370 million 
supports Navy and Marine Corps family housing operation, maintenance, 
and renovation requirements, including $16 million to revitalize 44 
homes at Marine Corps Air Station Iwakuni, Japan. The budget request 
also includes $260.2 million that will provide for the daily operation, 
maintenance, and utilities expenses necessary to manage its military 
family housing inventory.
    To date, over 60,000 Navy and Marine Corps family housing units 
have been privatized through the Military Housing Privatization 
Initiative. As a result, the Department has leveraged its resources to 
improve living conditions for the majority of sailors, marines, and 
their families. The Department has programmed $27.9 million to provide 
oversight and portfolio management for over 63,000 privatized homes to 
ensure the Government's interests remain protected and quality housing 
continues to be provided to military families. Although the Navy and 
Marine Corps have identified several remaining phases associated with 
existing projects, no funds are requested in the fiscal year 2015 
budget.
                         managing our footprint
Overview
    It is a basic tenet that the Department of Defense should own or 
remove from public domain only the minimum amount of land necessary to 
meet national security objectives. Coupled with the fiscal imperative 
to conserve resources, especially in this era of deficit reduction, the 
Department of the Navy (DON) has more than enough incentive to reduce 
its footprint both at home and abroad.
European Consolidation
    The DON is completing its evaluation of various basing scenarios, 
including joint use, at its four primary bases in Europe: Naval Station 
Rota, Naval Air Station Sigonella, and the Naval Support Activities in 
Naples and Souda Bay These analyses will inform the basis for DOD 
recommendations that are expected to be released in Spring 2014.
Base Closure and Realignment (BRAC)
    With respect to consolidating our domestic infrastructure, the Base 
Realignment and Closure process offers the best opportunity to assess 
and evaluate opportunities to properly align our domestic 
infrastructure with our evolving force structure and laydown, and the 
Department of the Navy (DON) supports the administration's request to 
authorize a single round of BRAC in 2017. Since the first round of BRAC 
in 1988, the DON has closed 186 domestic installations and activities, 
including 52 major installations. Figure 2 demonstrates the evolution 
of the Department's force structure since 2005:


                              FIGURE 2. FORCE STRUCTURE VS. NUMBER OF INSTALLATIONS
----------------------------------------------------------------------------------------------------------------
                                                                      Primary
                                                     Battle Force   Authorized    Personnel-
                 Year                     Service        Ships       Aircraft-      Active     Installations \1\
                                                                      Active
----------------------------------------------------------------------------------------------------------------
PB 2005..............................         Navy           290          1402        365900               94
                                               USMC                        995        175000               26
                                      --------------------------------------------------------------------------
      Total..........................  ............  ............         2397        540900              120
 
PB 2015                                       Navy           283          2331        323600               83
                                               USMC                       1201        182700               25
                                      --------------------------------------------------------------------------
      Total..........................  ............  ............         3532        506300              108
----------------------------------------------------------------------------------------------------------------
\1\ For ease of comparison, the number of current installations is adjusted to account for separate activities
  that are geographically proximate and now administered as a single base.


    The Department has programmed $95 million and plans to utilize an 
additional $43 million in prior year funds to continue environmental 
cleanup, caretaker operations, and property disposal. By the end of 
fiscal year 2013, we had disposed 93 percent of our excess property 
identified in prior BRAC rounds through a variety of conveyance 
mechanisms with less than 14,000 acres remaining. Here are several 
examples of what we were able to achieve in the past year.
    In May 2013, the Department conveyed 1,917 acres at the former 
Naval Station Roosevelt Roads to the Commonwealth of Puerto Rico Local 
Redevelopment Authority under an Economic Development Conveyance 
bringing the total property transferred to over 8,521 acres. The same 
month, the Department also conveyed the 118 acre Federal City West 
Property at Naval Support Activity New Orleans to the Algiers 
Development District. The remaining 24 acres of the East Bank Property 
was conveyed to the City of New Orleans via an Economic Development 
Conveyance in October 2013.
    In June 2013, the Department completed the Phase I conveyance of 
1,380 acres at the former Naval Air Station Alameda to the City of 
Alameda under a No-Cost Economic Development Conveyance. This 
conveyance is the first significant transfer of property at NAS Alameda 
since 2000.
    Overall, the Navy continues to reduce its inventory of properties 
closed under BRAC. Of the original 131 installations with excess 
property, the Navy only has 21 installations remaining with property to 
dispose. We anticipate reducing this number by four installations this 
year, with the remainder to be disposed as we complete our 
environmental remediation efforts.
    Under the previous BRAC efforts, the Navy has been able to realize 
approximately $4.4 billion in annual recurring savings. BRAC 2005 alone 
resulted in approximately $863 million in annual recurring savings. 
Although cleanup and disposal challenges from prior BRAC rounds remain, 
we continue to work with regulatory agencies and communities to tackle 
complex environmental issues and provide creative solutions to support 
redevelopment priorities, such as Economic Development Conveyances with 
revenue sharing.
Compatible Land Use
    The Department of the Navy has an aggressive program to promote 
compatible use of land adjacent to our installations and ranges, with 
particular focus on limiting incompatible activities that affect Navy 
and Marine Corps' ability to operate and train, and protecting 
important natural habitats and species. A key element of the program is 
Encroachment Partnering (EP), which involves cost-sharing partnerships 
with States, local governments, and conservation organizations to 
acquire interests in real property adjacent and proximate to our 
installations and ranges.
    The Department of Defense provides funds through the Readiness and 
Environmental Protection Initiative (REPI) that are used in conjunction 
with Navy and Marine Corps O&M funds to leverage acquisitions and 
restrictive easements in partnership with States, local governments and 
non-governmental organizations. Figure 3 represents the activity and 
funding for restrictive easements the Department acquired in fiscal 
year 2013:


                              FIGURE 3. RESTRICTIVE EASEMENTS ACQUIRED THROUGH ENCROACHMENT PARTNERING IN FISCAL YEAR 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Expenditures in fiscal year 2013 using      Total expenditures fiscal year 2005 through
                                                                  multiple fiscal year funding ($000)                 fiscal year 2013 ($000)
                                                            --------------------------------------------------------------------------------------------
                                                              Fiscal
                                                               Year     DOD    Service  Partner    Total    Total     DOD    Service   Partner    Total
                                                               2013     REPI    (O&M)    funds     Funds    Acres     REPI    (O&M)     funds     Funds
                                                              Acres    (O&M)                                         (O&M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Navy.......................................................    8,593    3,808      631   10,403   14,842    24,899   45,719    6,330    59,146   111,195
Marine Corps...............................................      459    2,168    4,655    2,682    9,505    44,553   47,706   22,353    72,954   143,013
                                                            --------------------------------------------------------------------------------------------
      Totals...............................................    9,052    5,976    5,286   13,085   24,347    69,452   93,425   28,683   132,100   254,208
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Vital to the readiness of our naval forces is unencumbered access 
to critical land, water and air space adjacent to our facilities and 
ranges. The Department understands that energy exploration, on land and 
off-shore, plays a crucial role in our Nation's security and are 
activities not necessarily incompatible with military training. 
However, we must continue to actively work to sustain freedom of 
maneuver or avoidance of restrictions to tactical action in critical 
range space to ensure the ability of naval forces to achieve the 
highest value from training and testing. As an active participant in 
the DOD Clearinghouse, the Department of the Navy assisted in the 
mission compatibility evaluation of 2,075 proposed energy projects 
submitted through the Federal Aviation Administration Obstacle 
Evaluation process during calendar year 2013. Ninety-six percent 
(1,992) of the projects were assessed to have little or no impact on 
military operations. As of December 31, 2013, the remaining 4 percent 
(84 projects) were either still under review (76) or assessed to have 
sufficient adverse impact to military operations and readiness (8) to 
warrant establishment of a Mitigation Response Team (MRT). The MRTs 
were established to engage in mitigation discussions with the developer 
to determine whether agreements can be reached to prevent negative 
impacts to military training and readiness.
                       relocating marines to guam
Overview
    Guam remains an essential part of the United States' larger Asia-
Pacific strategy of achieving a more geographically distributed, 
operationally resilient and politically sustainable force posture in 
the region.
Moving Forward
    The Department appreciates the limited exceptions provided in the 
National Defense Authorization Act for Fiscal Year 2014, as well as the 
authorization and appropriation of nearly $86 million for construction 
of the Marine Corps hangar at the North Ramp of Andersen Air Force 
Base. Together, these provisions will enable the Relocation to stay on 
track and support current and future Marine Corps training activity in 
Guam and the Commonwealth of the Northern Marianas Islands. The scope 
of the ongoing Supplemental Environmental Impact Statement, which the 
Department expects to release a draft for public comment in Spring 
2014, includes the live fire training range complex, alternatives for 
the location of the main cantonment area, family housing, and 
associated infrastructure. Presently, the Department anticipates 
signing a Record of Decision in Spring 2015.
    The fiscal year 2015 budget request includes funding for two 
military construction projects on Guam for a total investment of $51 
million: Ground Support Equipment Shops ($21.9 million) and facilities 
for the Marine Wing Support Squadron ($28.8 million). Both projects 
support current and future operations and were addressed in the Record 
of Decision signed in September 2010.
    Finally, The United States and Japan are continuously looking for 
more efficient and effective ways to achieve the goals of the 
Realignment Roadmap. Toward this end, the Governor of Okinawa signed 
the landfill permit request to build the Futenma Replacement Facility 
(FRF) at Camp Schwab on December 26, 2013. While the United States and 
Japan no longer link the requirement of ``tangible progress'' on FRF 
construction to the relocation effort, this is another indication of 
Japan's commitment to the Roadmap. Both countries remain steadfast in 
maintaining and enhancing a robust security alliance, and the United 
States remains committed to enhancing the U.S.-Japan Alliance and 
strengthening operational capabilities.
                               conclusion
    Our Nation's Navy-Marine Corps team operates globally, having the 
ability to project power, effect deterrence, and provide humanitarian 
aid whenever and wherever needed to protect the interests of the United 
States. As the threats facing our Nation continue to evolve, the fiscal 
reality creates its own challenges in striking the right balance. The 
Department's fiscal year 2015 request supports critical elements of the 
2014 Defense Quadrennial Review by making needed investments in our 
infrastructure and people; reducing our world-wide footprint; and 
preserving access to training ranges, afloat and ashore.
    Thank you for the opportunity to testify before you today, I look 
forward to working with you to sustain the war fighting readiness and 
quality of life for the most formidable expeditionary fighting force in 
the world.

    Senator Johnson. Thank you.
    For the information of Senators, we will limit questions to 
7-minute rounds, and I ask my colleagues to be mindful of that 
limit, so that everybody has a chance to participate. You may, 
of course, submit questions for the record.
    We will use the early bird rule, and I will recognize 
members from alternating sides in the order in which they 
arrived.
    Secretary McGinn, the Navy and Marine Corps MILCON budget 
request is nearly 40 percent below the fiscal year 2014 
request. The last time the MILCON request was this low was 
fiscal year 2002.
    Unfortunately, this reduction in the MILCON request comes 
at the same time that the Navy is preparing to undertake a 
major new mission in the Pacific, which will require hundreds 
of millions of dollars in MILCON investment over the next few 
years.
    Defense budget constraints are likely to be a fact of life 
for the foreseeable future.

                    MILCON INVESTMENTS/REQUIREMENTS

    How can the Navy undertake a major buildup in the Pacific 
under the current MILCON budget circumstances without 
undermining mission-critical MILCON investment in the United 
States and key locations overseas?
    Mr. McGinn. Mr. Chairman, the simple answer is that we 
cannot.
    Given the top line that we have today, and it, certainly, 
is less than what we have seen in the buildup during the past 
13 years of war, but given that top line today, and somewhat 
the uncertainty of what future funding levels are going to be, 
we cannot maintain the size of Navy and Marine Corps force 
structures and end-strength and infrastructure in the way that 
we need to meet that expanding mission in the Pacific and to 
also maintain standards of our shore infrastructure, and 
especially our critical installations that support those 
warfighting requirements.
    We recognize this. The decisions that were made in putting 
forward this 2015 budget are reflective of that.
    But given the current projected top lines, things are going 
to have to change. There will be changes. And where those 
changes will be made will be the result of intense deliberation 
and database analysis on where we can afford to take risks, not 
simply in our shore infrastructure, because, as you point out, 
that is unsustainable, but perhaps in other areas where there 
may not be the presence that we absolutely require to meet the 
combatant commanders' requirements.

                    QUALITY OF LIFE MILCON PROJECTS

    Senator Johnson. Admiral French and General Ayala, I noted 
earlier my concern that quality of life MILCON projects tend to 
be the first cut, at least in MILCON funding reductions.
    Last year's FYDP for fiscal year 2015 included five student 
housing or barracks projects, three Navy and two Marine Corps, 
totaling $176 million. The only quality-of-life project that I 
see included in the actual fiscal year 2015 request is the $19 
million Marine Corps barracks that wasn't even in last year's 
FYDP.
    Some quality-of-life projects such as schools and clinics 
are funded through defense-wide agencies, but barracks, youth 
and child care centers, chapels, and the like are funded 
through the services' MILCON accounts.
    What are the Navy and Marine Corps doing to protect needed 
investment in quality-of-life projects at a time of increasing 
mission requirements and declining MILCON budgets?
    Admiral.
    Admiral French. Mr. Chairman, thanks for the opportunity to 
be here today and to testify before your subcommittee.
    The challenges the Secretary laid out with regard to 
funding levels, certainly, affect us across the MILCON scheme.
    We looked hard last year and the year before at what our 
posture needed to be with regard to investments in barracks, so 
we looked hard at how we can convert housing to meet the 
requirements and how can we invest through FSRM.
    So we are comfortable we have the investments necessary 
today to meet the homeport ashore requirement, where we are 
getting all of our sailors off our ships in the barracks by 
2016. And we are still on track to meet that requirement with 
the current investments we have through 2015.
    And that is our focus today. And we continue to make 
priorities, as the Secretary said, with regard to where we 
spend our MILCON dollars. And most of it now is on new mission 
and system requirements, nuclear weapons safety and security 
requirements, training support to make sure that our sailors 
are properly prepared to do their missions, and recapitalizing 
and modernizing critical infrastructure.
    Senator Johnson. General.
    General Ayala. Mr. Chairman, thanks for the opportunity to 
comment today.
    Prudent investment in prior fiscal years, initiated by the 
Commandant of the Marine Corps, for a barracks plan has really 
put us in fairly good stead for now.
    Fiscal year 2015 MILCON projects are still ongoing in the 
installations. There are 22 installations of the Marine Corps. 
The large installations at Camp Pendleton and Camp Lejeune have 
some of these barracks projects that will be finished. And so 
for right now, I think we are in good stead.
    But as Secretary McGinn has stated, in the future, this is 
our concern, how we are going to upkeep these barracks. These 
CDCs and these other facilities that you mentioned, not only 
how we are going to upkeep them, but sustain them in the 
future. That is our main concern.
    Senator Johnson. Secretary McGinn, the Navy's fiscal year 
2015 request for base realignment and closure (BRAC) cleanup is 
$95 million, which it plans to supplement with $43 million in 
unobligated balances from prior year funds. That leaves the 
Navy BRAC cost to complete at nearly $1 billion.
    If additional funding were available, could the Navy 
execute more than the requested amount in fiscal year 2015? If 
so, please provide the subcommittee with a list of projects and 
amounts that could be executed in fiscal year 2015.
    Mr. McGinn. I would like to respond to that for the record, 
in written form, Mr. Chairman.
    [The information follows:]

    The Department of the Navy could obligate an additional $45 million 
for BRAC environmental cleanup above the PB 2015 budget request on the 
following installations:
  --Naval Shipyard Hunters Point, California: $10 million
  --Naval Station Treasure Island, California: $15 million
  --Naval Shipyard Mare Island, California: $5 million
  --Naval Weapons Station Concord, California: $5 million
  --Naval Air Station Joint Reserve Base Willow Grove, Pennsylvania: $5 
        million
  --Naval Air Station Alameda, California: $5 million

    Senator Johnson. Senator Kirk.

                        MISSILE DEFENSE PROJECTS

    Senator Kirk. Thank you, Mr. Chairman.
    I wanted to follow-up on what I identified to our witnesses 
when they visited me, my missile defense priorities for coming 
funding, to make sure that we carry out plans for missile 
defense in Poland; that we carry out construction plans for 
missile defense in Turkey and Japan; and I want to note 
especially Guam, where this subcommittee has provided about $21 
billion in upgrades for related MILCON, all within range of 
China, and their huge missile support.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you. This panel is excused.
    We have five upcoming votes beginning at 3:30. We will 
resume when the next panel is seated.

                      Department of the Air Force

STATEMENT OF HON. KATHLEEN I. FERGUSON, PRINCIPAL 
            DEPUTY ASSISTANT SECRETARY PERFORMING 
            DUTIES AS ASSISTANT SECRETARY OF THE AIR 
            FORCE (INSTALLATIONS, ENVIRONMENT, AND 
            LOGISTICS)
ACCOMPANIED BY:
        MAJOR GENERAL MARYANNE MILLER, DEPUTY CHIEF, UNITED STATES AIR 
            FORCE RESERVE
        BRIGADIER GENERAL JAMES WITHAM, DEPUTY DIRECTOR, UNITED STATES 
            AIR NATIONAL GUARD
    Senator Johnson. I am pleased to welcome our second panel 
of witnesses representing the Air Force. The Hon. Kathleen 
Ferguson, Principal Deputy Assistant Secretary, performing 
duties as Assistant Secretary of the Air Force for 
Installations, Environment and Logistics; Major General 
Maryanne Miller, Deputy Chief, United States Air Force Reserve; 
and Brigadier General James Witham, Deputy Director, United 
States Air National Guard.
    Thank you all for appearing before our subcommittee to 
discuss the fiscal year 2015 Air Force MILCON budget request.
    The Air Force MILCON budget request has been whipsawed for 
the past few years between what I would call feast and famine, 
rebounding last year from a dismally low request in fiscal year 
2013.
    Unfortunately, this year it appears that the budget request 
is slipping back into famine territory.
    The fiscal year 2015 request for Active and Reserve MILCON 
is $956 million, which is 28 percent below the fiscal year 2014 
request.
    I recognize the budget realities that the Air Force is 
facing, but I am concerned that a repeated pattern of starving 
investment in key MILCON missions could cripple the ability of 
the Air Force to respond to the total spectrum of future 
threats.
    To take just one example, the Air Force FYDP includes 
nearly $400 million from fiscal year 2016 through 2019 for the 
Pacific Air Power Resiliency Initiative and support of DOD's 
rebalance to the Pacific. That mission alone could overwhelm 
the Air Force MILCON budget, leaving inadequate resources for 
other key missions, such as several warfare facilities, both in 
the United States and overseas.
    I understand that the Air Force is a strong proponent of 
another round of base closures to address current budget 
shortfalls. Demolishing or repurposing excess buildings is a 
prudent use of resources, but wholesale base closure, in and of 
itself, is not a budgetary cure-all.
    I am concerned, as are many of my colleagues, that closing 
key bases and eliminating core missions simply to satisfy near-
term budget constraints is a shortsighted solution that could 
have long-term implications on national security.
    I understand Ms. Ferguson will give the only opening 
statement for this panel.
    As a reminder, all of your prepared testimony will be 
entered into the record.
    Ms. Ferguson, welcome back to the committee. Please proceed 
with your testimony.

             SUMMARY STATEMENT OF HON. KATHLEEN I. FERGUSON

    Ms. Ferguson. Chairman Johnson, thank you for the 
opportunity to speak to you today about the Air Force's 
military construction, energy, and base closure programs. On 
behalf of Secretary James and General Welch, I would like to 
thank you, Chairman Johnson, for your leadership of the 
subcommittee and for your unwavering support of the Air Force 
and our airmen.
    I know you are eager to get to the questions and have an 
upcoming vote, so I will try to keep my comments brief.
    The current fiscal environment required the Air Force to 
make some difficult choices. We attempted to strike a balance 
between a ready force today and a modern force tomorrow.
    To help achieve the balance, the Air Force took risk in 
installation support, military construction, and sustainment 
programs. In its budget request, the Air Force is asking for 
$1.4 billion in military construction, family housing, and base 
realignment and closure accounts.
    This reflects a 28-percent decrease in military 
construction. We deferred infrastructure recapitalization 
requirements, while supporting combatant commander requirements 
and weapon system beddowns.
    This budget request also distributes MILCON funding 
equitably between Active, Guard, and Reserve, ensuring that 
component equity targets were met.
    The Air Force is the largest single consumer of energy in 
the Federal Government with more than $9 billion spent last 
year to fly our aircraft and power our installations. Those 
costs represent about 9 percent of the total Air Force budget.
    For fiscal year 2015, we are requesting more than $600 
million for energy initiatives to help identify opportunities 
to invest in solutions to reduce our energy bill. Our efforts 
so far have helped us avoid $2.7 billion in total fuel and 
electricity costs just last year, as compared to our baseline 
years.
    At 86 percent, aviation fuel represents the largest share 
of our energy bill. To address this, the Air Force has a goal 
to improve aviation energy efficiency of our fleet by 10 
percent by 2020.
    And while there are significant upfront costs for those 
improvements, there are also significant long-term savings. For 
example, we are working to reengineer the KC-135 by upgrading 
the engine's high-pressure components. This effort will improve 
each engine's efficiency, reliability, and maintainability.
    While it will cost nearly $100 million, this investment is 
expected to save 85 million gallons of fuel through 2046. The 
maintenance savings, which will start in 2025, should save an 
additional $3.1 billion.
    The Air Force has also reduced its facility energy 
intensity by 22 percent since 2003, resulting in a utility bill 
cost avoidance of over $270 million in fiscal year 2013.
    Right now, we are working to meet our target to develop 
over $400 million in energy efficiency contracts. These 
projects are win-win. They address our sustainment shortfalls 
and implement new technology while obtaining funding through 
third-party financing.
    We are also looking at ways to use third-party financing to 
increase the percentage of our total electricity that comes 
from renewable energy sources.
    Last year, 8 percent of our electricity came from renewable 
energy, which was above the goal.
    And we are continuing to build on our successes. Recently, 
we just cut the ribbon on a 16.4 MW solar array at Davis-
Monthan Air Force Base in Arizona, the largest of its kind on 
any U.S. Department of Defense installation.
    My final topic is base realignment and closure, and the 
bottom line for the Air Force is we need another round of BRAC 
and fully support the fiscal year 2015 President's budget 
request.
    While the Air Force has no recent excess infrastructure 
capacity analysis from which to draw, the Department's capacity 
analysis from 2004 estimated we had 24 percent excess 
infrastructure capacity. BRAC 2005 directed the Air Force to 
close only eight minor installations, which accounted for less 
than 1 percent of our plant value.
    Since then, we have reduced our force structure by more 
than 500 airplanes, and reduced our Active Duty military end-
strength by more than 8 percent.
    Additionally, in the fiscal year 2015 President's budget 
submission, the Air Force has outlined plans to reduce our 
force structure and personnel even further. And even though we 
have not done an updated capacity analysis, we intuitively know 
we still have excess capacity and continue to spend money 
maintaining excess infrastructure that could be put toward 
readiness and modernization.
    In conclusion, the Air Force made hard choices during 
budget formulation. We attempted to strike a delicate balance 
of a ready force today and a modern force tomorrow, while 
adjusting to budgetary reductions.
    To help achieve that balance, the Air Force elected to take 
risk in installation support, military construction, and 
facility sustainment.
    We believe this risk is prudent and manageable in the short 
term, but we must continue the dialogue on rightsizing our 
installations footprint for a smaller but more capable force 
that sets the proper course for enabling the defense strategy.
    Members of the subcommittee, Chairman Johnson, thank you 
for your strong support of the men and women of the Air Force 
Active, Guard, Reserve, and civilians. This concludes my 
statement, and we look forward to your questions.
    [The statement follows:]
   Prepared Statement of Hon. Kathleen I. Ferguson, Principal Deputy 
Assistant Secretary Performing Duties as Assistant Secretary of the Air 
            Force, Installations, Environment and Logistics
                              introduction
    The mission of the United States Air Force is to fly, fight and win 
. . . in air, space and cyberspace. We do so through our six core 
capabilities of air and space superiority, global strike, rapid global 
mobility, precision engagement, information superiority and agile 
combat support. These capabilities are enabled and reinforced by our 
global network of Air Force installations, and managing those 
installations involves understanding and balancing mission 
requirements, risk, market dynamics, budgets, and the condition of our 
assets. As such, the health of our installations, environment and 
energy programs directly contributes to overall Air Force readiness.
                             installations
    Ready installations are an integral part of ensuring a ready Air 
Force. We view our installations as foundational platforms comprised of 
both built and natural infrastructure which: (1) serve as enablers for 
Air Force enduring core missions--we deliver air, space and cyberspace 
capabilities from our installations; (2) send a strategic message to 
both allies and adversaries--they signal commitment to our friends, and 
intent to our foes; (3) foster partnership-building by stationing our 
airmen side-by-side with our Coalition partners; and (4) enable 
worldwide accessibility in times of peace, and when needed for 
conflict. Taken together, these strategic imperatives require us to 
provide efficiently operated sustainable installations to enable the 
Air Force to support the Defense Strategic Guidance.
    In our fiscal year 2015 President's budget request, the Air Force 
attempted to strike the delicate balance between a ready force for 
today with a modern force for tomorrow while also recovering from the 
impacts of sequestration and adjusting to budget reductions. To help 
achieve that balance the Air Force elected to accept risk in 
installation support, military construction (MILCON) and facilities 
sustainment. The Air Force funded facilities sustainment at 65 percent 
of the OSD's Facilities Sustainment Model; reduced the restoration and 
modernization account by 33 percent and MILCON by 28 percent from the 
fiscal year 2014 President's budget. In doing so, we acknowledge near-
term facilities sustainment, restoration & modernization, and MILCON 
program reductions will have long term effects on the health of 
infrastructure. However, these reductions are critical to maintaining 
adequate resourcing across the Future Years Defense Program (FYDP) for 
some of the Air Force's unique capabilities.
    In total, our fiscal year 2015 President's budget request contains 
$3.32 billion for military construction, facility sustainment, 
restoration and modernization, as well as another $328 million for 
Military Family Housing operations and maintenance. For sustainment, we 
request $1.8 billion; for restoration and modernization, $547 million; 
and for military construction, we request $956\1\ million, which is 
$366 million less than our fiscal year 2014 President's budget request. 
This decrease in military construction defers infrastructure 
recapitalization requirements while supporting Combatant Commander 
(COCOM) requirements, weapon system beddowns, capabilities to execute 
the Defense Strategic Guidance, and distributes MILCON funding 
equitably between Active, Guard, and Reserve components. Ensuring 
component equity targets were met, approximately $95 million (9.9 
percent) and $50 million (5.2 percent) was distributed to the Guard and 
Reserve components respectively. This is an increase in component 
equity for both the Guard and Reserve from fiscal year 2014 to fiscal 
year 2015.
---------------------------------------------------------------------------
    \1\ $956 million is the Total Force funding request including 
Active, Guard and Reserve.
---------------------------------------------------------------------------
                               readiness
    Our fiscal year 2015 President's budget request includes vital 
facility and infrastructure requirements in support of Air Force 
readiness and mission preparedness. Examples of this include 
investments in projects which strengthen our space posture at Clear Air 
Force Station, Alaska, and support Total Force cyberspace and 
intelligence, surveillance, and reconnaissance projects at several 
locations including W.K. Kellogg Airport, Michigan; Willow Grove, 
Pennsylvania; and Des Moines International Airport, Iowa.
    Consistent with Defense Strategic Guidance, the Asia-Pacific 
Theater is a key focus area for the Air Force where we will make key 
investments to ensure our ability to project power into areas which may 
challenge our access and freedom to operate, and continue efforts to 
enhance resiliency. Guam remains one of the most vital and accessible 
locations in the western Pacific. For the past 8 years, Joint Region 
Marianas-Andersen Air Force Base (AFB) has accommodated a continuous 
presence of our Nation's premier air assets, and will continue to serve 
as the strategic and operational center for military operations in 
support of a potential spectrum of crises in the Pacific.
    To fully support Pacific Command's strategy, the Air Force is 
committed to hardening critical infrastructure, mitigating asset 
vulnerabilities, and increasing redundancy, as part of Pacific Airpower 
Resiliency. In 2015, we plan to continue the development of the Pacific 
Regional Training Center (PRTC) by constructing a combat communications 
infrastructure facility, a RED HORSE logistics facility, and a 
satellite fire station. These facilities will enable mandatory 
contingency training and enhance the operational capability to build, 
maintain, operate, and recover a ``bare base'' at forward-deployed 
locations, and foster opportunities for partnership building in this 
vitally important area of the world.
                             modernization
    The fiscal year 2015 President's budget request includes key 
infrastructure investments to support the beddown of the F-35A and KC-
46A. Our ability to support the beddowns of our new fighter and tanker 
aircraft depends on meeting construction timelines for critical 
infrastructure--facilities such as aircraft maintenance hangars, 
training and operations facilities, and apron and fuels infrastructure. 
This year's President's budget request includes $187 million for the 
beddown of the KC-46A at three locations. This consists of $34 million 
at McConnell AFB, Kansas, the preferred alternative for Main Operating 
Base (MOB) 1, $111 million at Tinker AFB, Oklahoma, for KC-46A depot 
maintenance, and $42 million at Pease International Tradeport Air 
National Guard Base (ANGB), New Hampshire the preferred alternative for 
MOB 2. This request also includes $67 million for the beddown of the F-
35A at two locations, consisting of $40 million at Nellis AFB, Nevada, 
and $27 million at Luke AFB, Arizona.
    Our fiscal year 2015 program also supports vital COCOM priorities, 
such as continuation of a multi-year effort to recapitalize the U.S. 
Strategic Command headquarters facility at Offutt AFB, Nebraska, 
construction of the U.S. Cyber Command Joint Operations Center at Fort 
Meade, Maryland, and construction of the U.S. European Command Joint 
Intelligence Analysis Center Consolidation (Phase 1) at RAF Croughton, 
United Kingdom.
                                 people
    During periods of fiscal turmoil, we must never lose sight of our 
airmen and their families. Airmen are the source of Air Force airpower. 
Regardless of the location, the mission, or the weapon system, our 
airmen provide the knowledge, skill, and determination to fly, fight 
and win. There is no better way for us to demonstrate our commitment to 
servicemembers and their families than by providing quality housing on 
our installations. We are proud to report that as of September 2013, 
the Air Force has privatized our military family housing at each of our 
stateside installations. To date, the Air Force has awarded 32 projects 
at 63 bases for 53,323 end-state homes.
    The Air Force continues to manage more than 18,000 government-owned 
family housing units at overseas installations. We use Military Family 
Housing Operations and Maintenance (O&M) sustainment funds to sustain 
adequate units, and MILCON to upgrade and modernize homes older than 
20-plus years, to meet the housing requirements of our airmen and their 
families, and the Joint servicemembers we support overseas.
    Similarly, our focused and efficient investment strategy for 
dormitories has enabled the Air Force to remain on track to meet the 
DOD goal of 90 percent adequate permanent party dorm rooms for 
unaccompanied airmen by 2017. The fiscal year 2015 President's budget 
request for military construction includes one dormitory at Hanscom 
AFB, Massachusetts--our Dormitory Master Plan's top priority. With your 
support, we will continue to ensure wise and strategic investment in 
these quality of life areas providing modern housing and dormitory 
communities. More importantly, your continued support will take care of 
our most valued asset, our airmen and their families.
                       closures and realignments
    We do all of this while recognizing that we are carrying 
infrastructure that is excess to our needs. This excess infrastructure 
and pending future force structure and personnel reductions make it 
clear the Air Force needs another round of BRAC.
    While we have no recent excess infrastructure capacity analysis 
from which to draw, the Department's capacity analysis from 2004 
estimated that the Air Force had 24 percent excess infrastructure 
capacity. Base Realignment and Closure (BRAC) 2005 directed the Air 
Force to close only 8 minor installations and 63 realignments affecting 
122 installations. Since then the Air Force has reduced our force 
structure by more than 500 aircraft and reduced our active-duty 
military end strength by nearly 8 percent. So, intuitively we know we 
still have excess infrastructure.
    Since the last BRAC round, we have strived to identify new 
opportunities and initiatives that enable us to maximize the impact of 
every dollar we spend. Our efforts to demolish excess infrastructure, 
recapitalize our family housing through privatization, unlock the 
fiscal potential value of under-utilized resources through leasing, and 
reduce our energy costs have paid considerable dividends.
    Since 2006, we have demolished 44.2 million square feet of aging 
building space that was excess to our needs and we estimate the 
resultant savings at greater than $300 million. We have demolished 
antiquated administrative facilities, ill-suited for today's 
technological age; we have eliminated aircraft operations and 
maintenance facilities that we no longer need based on reductions to 
the size of our aircraft fleet; and we have demolished old and energy-
inefficient warehouse facilities no longer needed due to rapidly 
evolving supply chains that reduce the need for localized storage.
    Despite our best efforts and the innovative programs, the Air Force 
continues to spend money maintaining excess infrastructure that would 
be better spent recapitalizing and sustaining our weapons systems, 
training to improve readiness, and investing in the quality of life 
needs of our airmen. Divestiture of excess property on a grander scale 
is a must; the Air Force strongly supports DOD's fiscal year 2015 
President's budget request for another round of BRAC.
                 european infrastructure consolidation
    The Secretary of Defense directed a capacity analysis to explore 
opportunities for reducing long-term expenses through infrastructure 
consolidation in Europe, and the Air Force fully supports this effort. 
Since 1990, the Air Force has reduced the number of Main Operating 
Bases (MOBs) in Europe from 25 to 6 and reduced the number of aircraft, 
personnel, and infrastructure in Europe by almost 75 percent. 
Currently, the Air Force is thoroughly evaluating its European 
infrastructure. Today we operate from six main operating bases to 
support our NATO commitments and provide throughput and global access 
for six unified combatant commands. We removed one A-10 squadron in 
Europe in fiscal year 2013, programmed for the reduction in the level 
of operations at Lajes Field, Portugal to better match infrastructure 
requirements to mission demand, and divested one Air Control Squadron 
and two Air Support Operations Squadrons. Through the Office of the 
Secretary of Defense-led European Infrastructure Consolidation study, 
we are using a comprehensive process to analyze a variety of scenarios.
                             environmental
    Our environmental programs priorities are to, (1) comply with legal 
obligations; (2) reduce risk; and (3) continuously improve. The 
President's 2015 budget request seeks a total of $919 million for 
environmental programs. This is $127 million less than last year and 
reflects savings in two broad areas--centralized program management and 
innovative acquisition strategies. Through centralized program 
management, Air Force has reduced approximately 12 percent of our 
overhead and management costs allowing us to eliminate 270 positions. 
Further, our environmental programs are designed to provide the 
mission-ready people, infrastructure and natural resources necessary to 
meet mission requirements today and tomorrow.
                       environmental restoration
    Our fiscal year 2015 President's budget request seeks $494 million 
in Environmental Restoration funding for cleanup of both current 
installations and those closed during previous BRAC rounds. We 
established our cleanup program in 1984 to clean-up former hazardous 
waste disposal sites on these installations. Our focus has been on 
completing investigations and getting remedial actions in place, to 
reduce unacceptable risk to human health and the environment in a 
prioritized manner. Ultimately, we seek to make real property available 
for mission use at our non-BRAC installations, or for transfer and 
reuse at our BRAC installations. We believe this balanced approach 
continues to serve our mission needs, our regulators' requirements, and 
our stakeholders' interests well.
    With over 7,100 restoration sites at our non-BRAC installations, 
and over 5,800 sites at our BRAC installations, the Air Force has made 
progress over time in managing this complex program area. In addition 
to regulatory and mission requirements, the DOD has committed to 
restoration program execution goals to help ensure an acceptable pace 
is maintained in program execution. While our BRAC restoration sites 
are on-track to meet the next DOD milestone to have 95 percent 
remedies-in-place by the end of fiscal year 2014, our non-BRAC 
restoration sites are currently projected to fall 19 percent short of 
this goal.
    In early 2011, we recognized our performance for this goal at our 
non-BRAC restoration sites was not acceptable and put into place a new 
policy and a new contracting strategy specifically to improve our 
performance. Since a large component of our cleanup program relies on 
expertise acquired under contracts, this policy made a change to fixed-
price, performance-based contracts that reward increased use of 
innovative technologies and cleanup strategies that consider the total 
life cycle cost of getting remedies in place and sites cleaned up.
    After 2-plus years of focused effort, our new policy and 
performance-based contracting strategy has generated substantial 
improvements, but work still remains to meet DOD goals for non-BRAC 
installation cleanup. With our new approach, we are finding better 
solutions and are cleaning up sites faster with lower projected 
lifecycle costs. Due to the efficiency and effectiveness of this 
approach, we expect our performance and progress to accelerate over the 
next year.
    We continue to meet Federal, State and other stakeholder 
requirements in implementing this new approach. We have received 
positive feedback from many regulators on our intent and means to 
finish clean-up more expediently and more efficiently. Our focus is to 
return real property for mission use or reuse under BRAC.
                         environmental quality
    Our fiscal year 2015 President's budget request seeks $425 million 
in Environmental Quality funding for environmental compliance, 
environmental conservation, pollution prevention, and environmental 
technology investments. We have programmed for all known, eligible 
environmental quality requirements to keep us in compliance with the 
law and allow us to continue to be good stewards of the environment.
    In our environmental quality programs, we have refocused our 
efforts to streamline and more effectively manage our compliance, 
conservation and environmental planning activities. We have instituted 
a standardized and centralized requirements development process that 
prioritizes all Air Force environmental requirements in a manner that 
minimizes risk to airmen, the mission and the natural infrastructure. 
Our environmental quality budget request follows our prioritized list 
and ensures the continued availability of land, air, and water 
resources at our installations and ranges so we can train and operate 
today and into the future.
    The Air Force remains committed to a robust environmental 
conservation program in fiscal year 2015. Prior appropriations allowed 
the Air Force to invest in conservation activities on our training 
ranges, providing direct support to mission readiness. The conservation 
program in fiscal year 2015 builds on the efforts of past years to 
continue habitat and species management for threatened and endangered 
species, improve the inventorying and management of Cold War context 
and other historic properties, and enhance our consultation activities 
with Native American tribes. The fiscal year 2015 President's budget 
request also provides for continued cooperation with other agencies, 
like the U.S. Fish and Wildlife Service, to maintain current Integrated 
Natural Resource Management Plans, and to operate the Wildland Fire 
Center to manage risk from wildfires, enhance ecosystem resilience 
through application of prescribed fire, and provide key fire-related 
information for planning and incident response.
    We will maintain our strong performance as good environmental 
stewards complying with legal requirements, reducing risk to our 
natural infrastructure, and honing our environmental management 
practices. Working together with regulatory agencies, other Federal 
partners, and industry experts, the Air Force continuously innovates 
and adopts best practices to lessen environmental financial liabilities 
and the impact of our operations. We do this to maintain the Air 
Force's mission-ready posture and meet Combatant Commander 
requirements. With this approach, we seek the sustainable management of 
the resources we need to fly, fight, and win into the future.
                                 energy
    Energy is a corner stone of the Air Force's ability to maintain 
global vigilance, reach, and power which requires a robust energy 
security posture. Energy security means ``having assured access to 
reliable supplies of energy and the ability to protect and deliver 
sufficient energy to meet operational needs.'' And to enhance its 
energy security, the Air Force is focused on four priorities:
  --Improve resiliency to ensure the Air Force has the ability to 
        recover from energy interruptions and sustain the mission,
  --Reduce demand through operational and logistical efficiencies and 
        new technologies, without losing mission capabilities,
  --Assure supply by diversifying the types of energy and securing the 
        quantities necessary to perform its missions, and
  --Foster an energy aware culture by increasing our airmen's 
        understanding of energy and its impact to the mission.
                             budget impact
    The Air Force is the largest single consumer of energy in the 
Federal Government. As energy costs increase and budgets decrease, 
energy places greater pressure on the Air Force budget. In fiscal year 
2013, the Air Force spent approximately $9 billion on fuel and 
electricity, with over 85 percent of those costs dedicated to aviation 
fuel. That $9 billion represented over 8 percent of the total Air Force 
budget, and this is only expected to increase in future years as the 
price of energy continues to rise. Every dollar the Air Force does not 
need to spend on energy allows the Air Force to invest that dollar into 
enhancing a high quality and ready force.
    As part of our ongoing effort to achieve our energy vision to 
sustain an assured energy advantage, the Air Force is requesting over 
$614 million for targeted energy initiatives in fiscal year 2015. This 
includes $24.5 million for aviation energy, over $60 million for 
facility energy initiatives, and $193.7 million for materiel 
acquisition and energy research, development, test and evaluation 
opportunities. Additionally, over $200 million of our facility 
sustainment, restoration, and modernization projects will have 
additional energy savings as a secondary benefit by updating 
inefficient infrastructure and building components. While these energy 
improvements are small on a project-by-project basis, collectively they 
make a meaningful contribution to reducing the Air Force's energy 
consumption and build upon the nearly $855 million the Air Force has 
invested for such projects over the last 4 years.
    Although sequestration in fiscal year 2013 deferred the spending of 
the $216 million energy focus fund until late in the fiscal year, the 
Air Force did fund 135 of the planned 220 projects to improve our 
facility energy efficiency. The savings from these investments are 
expected to begin in fiscal year 2015, and the majority are expected to 
payback before or just shortly after the Future Years Defense Program. 
However, the delay due to sequestration may cause the Air Force to miss 
its 2015 target year energy intensity reduction of 30 percent. 
Additionally, sequestration deferred spending on facility audits, 
advanced meter and advanced meter reading system installations, and 
delayed utilities privatization contract awards.
                          energy conservation
    The Air Force takes a centralized asset management approach in 
infrastructure investments, which has led to a reduction in our overall 
facility energy intensity by more than 22 percent since fiscal year 
2003. However, the 67 percent increase in energy unit costs over that 
same period has resulted in a relatively stable amount the Air Force 
spent to power its facilities since fiscal year 2006. Nonetheless, our 
energy conservation efforts have helped the Air Force cumulatively 
avoid over $1.7 billion in facility energy costs since 2003, enabling 
the Air Force to use those funds to increase mission effectiveness.
    The Energy Conservation Investment Program (ECIP) is a critical 
element of the Air Force's strategy to improve the energy performance 
of its permanent installations. The Air Force fiscal year 2014 program 
includes 12 ECIP projects totaling $35.1 million. The Air Force fiscal 
year 2015 program submitted to OSD includes 14 projects totaling $40.8 
million. The Air Force is also looking to reduce demand by using 
smarter construction methods that maximize energy efficiency and use 
environmentally friendly materials while continuing our initiative to 
identify and demolish 20 percent of our old, unnecessary, and high-
energy use facilities by 2020.
    By reducing our aviation fuel consumption more than 24 percent 
since fiscal year 2006, the Air Force avoided almost $2.5 billion in 
aviation fuel costs in fiscal year 2013, compared to fiscal year 2006. 
Moving forward, the Air Force is looking towards an efficiency goal to 
improve our aviation productivity by 10 percent by fiscal year 2020. At 
our installations, the Air Force spent more than $1 billion in fiscal 
year 2013 for facility energy. However, without our efforts to reduce 
consumption over the last 10 years, our facility energy bill would have 
been over $270 million higher last year.
                            renewable energy
    The Air Force is looking to improve its energy security and 
diversify its energy supply through the increased use of renewable 
energy. In fiscal year 2013 8 percent of the electrical energy used by 
the Air Force was produced from renewable sources, and the amount of 
renewable energy used by the Air Force continues to increase every 
year. Moving forward, our goal is to develop 1,000 megawatts (MW) of 
renewable energy capacity on our installations. By making the most of 
private sector knowledge, technology, and financing, we plan to 
capitalize on underutilized land on our installations to develop those 
projects. Currently, the Air Force has 256 renewable energy projects in 
operation across a wide variety of renewable energy sources, including 
wind, solar, geothermal, and waste-to-energy projects, increasing 
energy production by over 53 percent from 2012 to 2013. This year, we 
are planning projects that are expected to provide over 31 MW of 
capacity, with another 31-41 MW of capacity planned for fiscal year 
2015.
    The Air Force is not limiting its efforts to renewable energy 
projects, but is also incorporating alternatively fueled ground 
vehicles into our fleet. With the support of private and public 
stakeholders, the Air Force is currently working to develop an all-
electric vehicle fleet at Los Angeles AFB, California, the first 
Federal facility to replace 100 percent of its general-purpose vehicle 
fleet with electric vehicles. Additional vehicles are slated for 
several other DOD installations, including Joint Base Andrews-Naval Air 
Facility Washington and Joint Base McGuire/Dix/Lakehurst.
                         third-party financing
    While the Air Force has made considerable progress to reduce our 
energy consumption and increase our energy diversity, there is still 
more to do. The Air Force is pursuing a third-party financing approach 
for both renewable and energy conservation projects.
    Direct Air Force renewable energy project funding through Air Force 
capital sources is rarely cost-effective when compared to commercial 
utility rates. To address this, the Air Force is using existing 
authorities, such as Enhanced Use Leases (EULs) and Power Purchase 
Agreements (PPAs), to attract private industry to develop renewable 
energy projects. We see tremendous potential for third-party 
investments to construct on-base renewable projects.
    The Air Force is reinvigorating third-party financing to fund 
energy conservation projects through Energy Savings Performance 
Contracts (ESPC) and Utility Energy Service Contracts (UESC). Since 
fiscal year 2012, the Air Force awarded $94 million in such contracts, 
improving our energy conservation with no upfront capital required. 
Over the next 2 years, the Air Force anticipates awarding five ESPC and 
five UESC projects. These projects will help the Air Force achieve its 
goal under the President's Federal Energy Performance Contracting 
Challenge.
                               conclusion
    The Air Force made hard strategic choices during formulation of 
this budget request. The Air Force attempted to strike the delicate 
balance between a ready force for today with a modern force for 
tomorrow while also recovering from the impacts of sequestration and 
adjusting to budget reductions. To help achieve that balance the Air 
Force elected to accept risk in installation support, Military 
Construction and facilities sustainment. We believe this risk is 
prudent and manageable in the short-term, but we must continue the 
dialogue on right-sizing our installations footprint for a smaller, 
more capable force that sets the proper course for enabling the Defense 
Strategy while addressing our most pressing national security issue -
our fiscal environment.
    In spite of fiscal challenges, we remain committed to our airmen 
and their families. The privatization of housing at our stateside 
installations provides our families with modern homes that improve 
their quality of life now and into the future. We also maintain our 
responsibility to provide dormitory campuses that support the needs of 
our unaccompanied airmen.
    Finally, we continue to carefully scrutinize every dollar we spend. 
Our commitment to continued efficiencies, a properly sized force 
structure, and right-sized installations will enable us to ensure 
maximum returns on the Nation's investment in her airmen, who provide 
our trademark, highly valued airpower capabilities for the Joint team.

    Senator Johnson. Thank you, Ms. Ferguson.
    The Air Force fiscal year 2015 budget request continues a 
seesaw pattern of MILCON funding that we have seen over the 
past several years.
    It would seem to me that budget predictability is essential 
to making informed MILCON decisions, given that MILCON is a 
long-term investment.
    What impact could the current unpredictability of the 
annual Air Force MILCON budget have on overall MILCON planning 
and execution?
    Ms. Ferguson. Thank you, Chairman Johnson.
    As we reduce the infrastructure investments, the health of 
our facilities and installations can decline and will increase 
the risk of failure in the future. We don't know what that is, 
at this time, but we are doing whatever we can to help reduce 
costs.
    We are looking at demolition. We are changing the way we 
invest in our facilities. We are doing a much more centralized 
approach and looking worst-first across the entire Air Force 
rather than installation by installation.
    As you look at our fiscal year 2015 MILCON request, we have 
focused on supporting combatant commander requirements and new 
mission beddowns. Those account for over 80 percent of our 
investments, but we are continuing to look for ways to reduce 
costs.
    But, as you mentioned, we are taking increased risk in 
facilities and infrastructure.
    Senator Johnson. The Air Force is already having to play 
catch-up ball following the fiscal year 2013 MILCON pause. Is 
the Air Force in danger of creating a MILCON backlog whereby 
the level of funding available for current and planned MILCON 
is inadequate to meet emerging mission requirements?
    Ms. Ferguson. As we develop our MILCON program budgets, 
whether it is for 2015 or out through the Future Years Defense 
Program (FYDP), we focus first on what our combatant commander 
requirements are and then what is required to support the new 
mission beddowns.
    Where we are taking increased risk is in the 
recapitalization of existing facilities. And, as you mentioned 
with Secretary McGinn, in the Air Force budget we have just one 
dormitory project this year. We have invested heavily in dorms 
over the last 20 years, and we think we are at a point where we 
are managing risk, but we are going to have to continue to 
watch that.
    Senator Johnson. Ms. Ferguson, the fiscal year 2015 budget 
request for the Defense Logistics Agency (DLA) includes $8 
million to construct a hydrant fuel system at Ellsworth Air 
Force Base to improve fueling efficiency and safety for the B-1 
mission.

  DEFENSE LOGISTICS AGENCY MILCON AT ELLSWORTH AIR FORCE BASE, SOUTH 
                                 DAKOTA

    In the fiscal year 2019 FYDP, there are two additional DLA 
MILCON projects at Ellsworth, $8.3 billion for a bulk fuel 
storage tank and $13.4 million for a type III hydrant system.
    How do these projects factor in to the B-1 mission and the 
Air Force's long-term plans for Ellsworth?
    Ms. Ferguson. Certainly, those two projects support the B-1 
mission at Ellsworth. And if I could, I would like to take the 
rest of that for the record. I don't have the insight into the 
DLA military construction program. But certainly, we value the 
B-1 at Ellsworth Air Force Base, South Dakota.
    [The information follows:]

    The Construct Bulk Fuel Storage Tanks project and the Construct 
Type III Hydrant System project will replace facilities critical for 
continued safe and sustainable B-1 operations at Ellsworth AFB, South 
Dakota. These military construction projects will increase the fuel 
flow rate to meet B-1 operational requirements, increase the number of 
fueling outlets, provide a reliable backup fueling system consistent 
with the base's strategic mission, remove dangerous airfield 
obstructions and environmental hazards, and bring the aircraft fuels 
infrastructure up to current standards.

                    RESERVE COMPONENT MILCON FUNDING

    Senator Johnson. General Miller and General Witham, the Air 
Force Reserve and the Air National Guard offer this country 
tremendous value for relatively modest investment. Recently, 
Secretary James stated that the Air Force will rely even more 
heavily on its air National Guard and Reserve components in the 
future.
    It is essential that adequate MILCON is programmed to allow 
the Air Guard and Reserve to fulfill their operational and 
mission requirements.
    Are current and planned MILCON investments sufficient to 
ensure mission ready Air National Guard and Air Force Reserve 
components? Do you anticipate that the Guard and Reserve will 
need to be allocated increasingly large percentages of Air 
Force's overall MILCON budget as they are increasingly relied 
upon in the future?
    General Miller.

           SUMMARY STATEMENT OF MAJOR GENERAL MARYANNE MILLER

    General Miller. Thank you, Mr. Chairman, for the 
opportunity to testify today.
    Today's budget in fiscal year 2015 meets our fair share 
needs for our most pressing facility needs throughout the 
Reserve command. At this level, we can make progress in 
reducing our MILCON project backlog that is now about $1.4 
billion.
    Regarding the question of increased percentages, I think as 
the Air Force would begin to adjust the different force 
structure levels, if that is what the future brings for the Air 
Force, then we would need to look at maybe adjusting the 
percentages. But right now, the fair share percentage, we 
appreciate the response, and it is actually above the fair 
share percentage, so we appreciate that.
    We do have a concern, though, that sequestration could 
have, in the future, negative impacts, and we look forward to 
any support that you could provide to mitigate or eliminate 
sequestration.
    [The statement follows:]
 Prepared Statement of Major General Maryanne Miller, Deputy Chief of 
                         the Air Force Reserve
    Chairman Johnson, Ranking Member Kirk, and distinguished members of 
the subcommittee, thank you for the opportunity to appear before you 
today. I'm honored to represent over 70,000 citizen airmen and discuss 
the Air Force Reserve's Military Construction program for fiscal year 
2015.
    The Air Force Reserve is a combat-ready force stationed locally at 
over 60 locations throughout the United States and, serving globally 
for every Combatant Command in air, space, and cyberspace. On any given 
day, approximately 5,000 of our citizen airmen are actively serving in 
support of deployments, contingency taskings, exercises and operational 
missions.
    The Air Force Reserve's ability to fly, fight, and win is 
dependent, in part, upon the quality of the installations in which we 
reside and operate. We are a tenant at over 50 installations, where we 
maximize taxpayer dollars by sharing facilities when possible. By 
minimizing our facility footprint, we further increase the cost 
effectiveness of your Federal reserve force.
    For fiscal year 2015, the Air Force Reserve MILCON budget request 
is $49.5 million. This request funds our highest priority project, the 
Consolidated Mission Complex at Robins Air Force Base, Georgia. This 
new facility will allow us to finalize the move of mission personnel 
from a leased temporary facility to a permanent structure.
    This request also provides for construction of an extension to the 
KC-135 Tanker Parking Apron at Seymour-Johnson Air Force Base, North 
Carolina and an Explosive Ordnance Disposal Training Facility at Naval 
Air Station, Joint Reserve Base, Ft Worth, Texas.
    The Planning and Design funds request is $6.9 million and the Minor 
Construction funds request is $1.4 million for urgent and compelling 
projects beneath the 2 million dollar threshold.
    In conclusion, the Air Force Reserve appreciates your tremendous 
support for our MILCON budget request even in the midst of extreme 
fiscal pressure. The Air Force Reserve is a proud and indispensable 
member of the three-component Air Force team, dedicated to the defense 
of our Nation.
    I look forward to working with the subcommittee to ensure our Air 
Force Reserve remains highly capable and postured to serve. Thank you 
for your continued support of America's citizen airmen. I stand ready 
to answer any of your questions.

    Senator Johnson. General Witham.

          SUMMARY STATEMENT OF BRIGADIER GENERAL JAMES WITHAM

    General Witham. Mr. Chairman, thank you for the opportunity 
to testify before the subcommittee today.
    In relation to the target equities in terms of the MILCON 
that the Air National Guard received as a portion of the Air 
Force's overall MILCON request, the target equity based on our 
plant value is 8.1 percent. We actually received 9.9 percent of 
the MILCON request this year, which was actually a slight 
increase over fiscal year 2014.
    So in terms of the target equities, to sustain our physical 
plant value, we think we are right on target in terms of 
working with the Active force for the MILCON request for fiscal 
year 2015.
    Almost all of our fiscal year 2015 MILCON request was 
related to new mission beddowns. As we continue to bed new 
missions down, as Secretary James talked about, we will need to 
continue to work with the Air Force to ensure that as new 
missions transfer to the Reserve components, that we are able 
to sustain that MILCON priority to be able to bed those new 
missions down.
    This current investment strategy, though, continues to put 
at risk, as you mentioned, recapitalization of existing Air 
National Guard facilities.
    [The statement follows:]
    Prepared Statement of Brigadier General James C. Witham, Deputy 
                   Director of the Air National Guard
    Chairman Johnson, Ranking Member Kirk, and members of the 
subcommittee; I am honored to appear before you today representing the 
dedicated men and women of the Air National Guard.
    The Air National Guard requests $94.6 million for military 
construction (MILCON) projects in the fiscal year 2015 President's 
budget request. This includes funding for seven major projects, a 
number of minor construction projects, and Planning and Design for 
future projects.
    In preparing the fiscal year 2015 MILCON budget, the Air National 
Guard gave priority to projects supporting new missions, including KC-
46's in New Hampshire, C-130's in Connecticut, and, Remotely Piloted 
Aircraft in Michigan, Iowa, and Pennsylvania. This investment policy 
has caused use to take risk in current missions.
    Overall, the Air National Guard has a very efficient business model 
in sharing facilities at civilian airports, or with other military 
service whenever possible.
    Thank you for inviting me here today. And, thank you for your 
service to the Nation, and your support to the Air Force and the Air 
National Guard. I look forward to your questions.

    Senator Johnson. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank all of you for being here today and direct my questions 
to Secretary Ferguson.
    I want to begin by thanking you for all the work you have 
done as we have put together a really one-of-a-kind technology 
park on the Grand Forks Air Force Base, and you have been 
instrumental in the process. I just want to express our great 
appreciation for all the work you have done.
    My first question is, can you update me as far as where we 
stand in the process, and specifically when we might expect the 
final lease to be signed between the Air Force and Grand Forks 
County?
    Ms. Ferguson. Thank you, Senator Hoeven. We are very 
excited to bring this to conclusion. And the Air Force has 
completed all the work required by the National Environmental 
Policy Act, and we expect that document to be signed by the end 
of April.
    We understand Grand Forks County is in final negotiations 
with their anchor tenant and is expected to get their letter of 
intent in the next several weeks. And once both of those 
actions are done, we can bring the deal to closure. And we are 
anticipating having this done in early June, having the final 
signature of the enhanced-use lease.
    Senator Hoeven. So the timeline is hopefully by early June?
    Ms. Ferguson. Yes.
    Senator Hoeven. We will have a signed lease?
    Ms. Ferguson. We should have a signed lease by then, yes, 
sir.

  UNMANNED AERIAL VEHICLES AT GRAND FORKS AIR FORCE BASE, NORTH DAKOTA

    Senator Hoeven. Again, thank you. And you have been really 
creative and I think innovative in this endeavor.
    Would you also comment in terms of what you see some of the 
benefits are from an Air Force perspective with this approach, 
particularly as regards to the Global Hawk? And, of course, we 
fly the Global Hawk Block 40 out of Grand Forks Air Force Base.
    But also, our Guard flies the Predator mission, and we have 
been selected and the Grand Forks region has been one of the 
six pilot test sites by the Federal Aviation Administration 
(FAA) for the development of concurrent airspace use, which is 
very exciting. It has many, many applications, particularly 
with the University of North Dakota School of Aerospace.
    But comment from an Air Force perspective as to what you 
see the benefits are in terms of the Global Hawk, Predator, and 
development of the unmanned mission.
    Ms. Ferguson. I first want to congratulate Grand Forks, the 
County of Grand Forks, for being so innovative and creative in 
coming up with this proposal. And I think this has tremendous 
benefits both inside the Air Force and outside, and provides a 
center of excellence between the county, the community, and 
State.
    As you pointed out, it will help with the way forward with 
the FAA, and congratulations on being one of the six candidates 
there.
    I can get you a little more definitive answer on 
specifically what the benefit is with unmanned aerial vehicles 
(UAVs) up there, but I do think it is a great example of a 
partnership between the Air Force, the community, and the 
industry in moving this forward.
    [The information follows:]

    The Air Force and Air National Guard (ANG) operate Global Hawk and 
Predator remotely piloted aircraft (RPAs) from Grand Forks Air Force 
Base, North Dakota. RPAs currently lack a ``see and avoid'' capability 
and the U.S. Customs and Border Protection must use a Special Security 
temporary flight restriction (TFR) to gain access to the local 
airspace. The Air Force and ANG have been fortunate to be able to 
leverage that TFR when in use by the U.S. Customs and Border Protection 
for transit of RPAs to a restricted training area over Camp Grafton. 
The Air Force recognizes that Grand Forks Air Force Base would benefit 
from detect and avoid technology when it becomes available. In the 
interim, the Air Force, ANG, U.S. Customs and Border Protection, and 
civil unmanned aerial systems will continue to need a Federal Aviation 
Administration (FAA) certificate of authorization or waiver to operate. 
Once ground based detect and avoid technology is proven and fielded, 
there may be options whereby local civil operations such as the FAA 
unmanned aerial systems test site and the University of North Dakota 
may benefit.

    Senator Hoeven. Also, I guess, just any thoughts that you 
might have as to things that we should be doing at this time 
proactively that would in any way help to continue to build 
this partnership? Are there any other steps we should be 
taking, resources we should be trying to bring to the equation, 
or just any recommendations you have at this point in the 
process?
    Ms. Ferguson. Relative to the enhanced use lease, I think 
we are on track for the enhanced use lease, and I think that 
teams collectively have come together and have a great way 
forward that will come to conclusion here in pretty short 
order.
    The one thing that I mentioned to all members and 
committees that I talk to is I think one of the largest things 
we can do now is to utilize the section 331 legislation, which 
allows broader partnerships between the Department of Defense 
military installations and the communities to help reduce 
costs, operating costs, both inside the fence line and outside 
the fence.
    And so that, as I counsel communities and members, that is 
really what I ask them to focus on.
    We have 16 tabletop exercises going on right now that have 
identified over 400 opportunities. We have another 30 in the 
pipeline for this year and have the potential to save many, 
many, many dollars, both for communities and for installations 
across the United States.
    Senator Hoeven. We think the approach will be a unique, 
one-of-a-kind asset for the Air Force and provide capabilities 
that are very important for the national defense. But I 
absolutely agree with you on the cost savings as well.
    Just looking at the number of partners we have in the 
project, Customs and Border Protection, the State of North 
Dakota, the State of Minnesota, higher education, UND 
Aerospace, but also Northland Community and Technical College, 
which is on the Minnesota side in the East Grand Forks region, 
Air National Guard.
    So with all these partners, as well as State funding coming 
into the equation, I mean is that how you see affecting some of 
these cost savings? Or are there other steps then that we 
should be looking at besides this incredible partnering to make 
that happen?
    Ms. Ferguson. I believe the enhanced use lease and all the 
good work that is being done will be a tremendous enabler up 
there. I think it will probably do things we have not even 
envisioned so far.
    Really, what I am talking about are the other opportunities 
that we can achieve as well, through more than just enhanced 
use lease, through other partnering opportunities between the 
base and the community. And it could be anything from municipal 
services to other things that we have not even thought of yet.
    Senator Hoeven. And the best way for us to proceed forward 
on that issue would be?
    Ms. Ferguson. Through our tabletop exercises through our 
section 331 program. I will get back to you on where Grand 
Forks fits in that.
    [The information follows:]

    On April 7, 2014, Grand Forks Air Force Base leadership agreed to 
be part of the Air Force Community Partnership Initiative. An Air Force 
team has been identified that will lead installation and community 
leaders through a 6 to 8 month process designed to help them identify 
ways to reduce mutual operating and service costs. This process will 
begin once the leaders meet to discuss potential mutually-beneficial 
cost-effective initiatives; this kick-off is anticipated in June 2014.

    Senator Hoeven. Okay, and we will make sure we participate 
in those.
    Ms. Ferguson. We will do that.
    Senator Hoeven. And then Secretary, to you or to our other 
witnesses, any thoughts in terms of the force structure that 
has been released by the Department of Defense, specifically in 
regard to the nuclear triad? Just any comments that you would 
have, in that regard?
    At the Minot Air Force Base, we have both the 
intercontinental ballistic missiles (ICBMs) but also the B-52 
mission, the nuclear mission. Just any thoughts on that force 
structure plan or how we can be helpful to you as we move 
forward with it?
    General Miller. Sir, I don't have any further comments on 
that from the Reserve perspective.
    Senator Hoeven. Okay.
    General.
    General Witham. Senator, from a pure Air National Guard 
equity piece of that, our touch point in the nuclear community 
in North Dakota is specifically with the security forces side, 
and we will continue to work on that in terms of what surge 
capacity is required in that.
    However, most of the nuclear mission is done by the Active 
Air Force. But we will continue to look for those opportunities 
in the Air National Guard where we can continue to participate, 
like we have done so well in the security forces realm.
    Senator Hoeven. From an Air National Guard perspective, 
very important that we continue to advance and develop the 
Predator mission with the newer systems. I think we are one of 
the first Guard units to find the Predator. We continue to work 
on a manned mission, and we are working very closely with Grand 
Forks Air Force Base, which offers some opportunities there 
potentially with future tanker siting and so forth.
    So, General, any thoughts in regard to those efforts? And 
any recommendations on what we should be doing?
    Senator Johnson. We have to wrap it up, Senator.
    Senator Hoeven. Yes, sir.
    Just any final thoughts?
    General Witham. Senator, just a couple real quick thoughts 
based on that. We are very excited about working with the 119th 
Reconnaissance Wing. They have done fantastic work on MQ-1.
    As the Air Force recently announced, we will recapitalize 
our MQ-1 to an MQ-9 platform. We are excited about working with 
the 119th on that transition to, essentially, the MQ-9. Also, 
we are going to continue to work on expanding the launch and 
recovery element as part of the Grand Forks effort, as part of 
the 119th wing up at Grand Forks from their Fargo base.
    Senator Hoeven. Very good.
    Thank you, General.
    And thank you so much, Mr. Chairman.
    Senator Johnson. Senator Begich.
    Senator Begich. Thank you very much. Thank you, Mr. 
Chairman. I know I was running from another meeting, but I just 
appreciate just a few minutes here. I won't take too much time.
    But first, thank you all for being here. Thank you for the 
work you do in serving our country.
    Let me first start, if I can, on the issue of the F-35. As 
you know, Eielson and Joint Base Elmendorf-Richardson, or JBER, 
are in this selection of the five being reviewed. And I know 
General Carlisle led this effort to figure out where that next 
bedding down will be. I know there are some time schedules 
here.
    And I want to first, of course, brag that we think our 
locations are the best. No question about it. Location, 
location, location.
    But I want to make sure, on your timetable here, I know you 
are in the process of narrowing down that list. The question 
is, I think May was the target date. Is that still the target 
date to narrow that down to one or two locations?
    Ms. Ferguson. Senator Begich, as you know, the site surveys 
are going on right now. They will be complete later this month. 
And we anticipate either late May or early June.
    We will get those briefings into the Secretary. It comes in 
through the Air Force strategic basing process, and those will 
be briefed to the Chief and Secretary in late May or early 
June. And then we will come over with a recommendation or with 
the results of what that will be.
    Senator Begich. Will you have a single recommendation or 
two? I mean, what will you do on that list? Will you narrow it 
down to one? Or will you narrow it down to a couple?
    Ms. Ferguson. Typically, it will be narrowed down to a 
preferred alternative and reasonable alternatives. So that has 
been, historically, what we have done. I would anticipate that 
it will be the same this time.
    Senator Begich. I don't know if you can answer this 
question, but I know some of your folks have, I think, started 
in Alaska. I am not sure yet. But are there any issues that are 
coming up that may cause a delay that you can see at this point 
in any of the timetable you have laid out?
    Ms. Ferguson. I have not heard of any issues relative to 
any type of delay, so I anticipate it will stay on schedule at 
this point in time.

                   JOINT PACIFIC ALASKA RANGE COMPLEX

    Senator Begich. Okay. And then I am assuming when you are 
determining this, and, of course, from a purely Alaska 
perspective, we have the Joint Pacific Alaska Range Complex 
(JPARC), which is the largest uninterrupted airspace training 
ground that the military has, it is an incredible asset.
    When they review--and let's take the Fairbanks region and 
Eielson Air Force Base--when they review that location, I am 
assuming they will also look at these additional assets that 
will be advantageous or not to the bedding down of the F-35. Is 
that correct?
    Ms. Ferguson. Absolutely. They look at all those things 
required to support the operations.
    Senator Begich. And if I can jump onto the other part, what 
Senator Hoeven talked about on partnerships, I know the State 
of Alaska has been very aggressive about assisting with the 
expansion and improvements of JPARC. I think the Federal 
Government put in $105 million or so, and the State came along 
and did another $85 million to finish a bridge. And now there 
is some discussion of some road access and some other 
alternatives.
    When you are doing these reviews, does that play into this 
or not? And the reason I ask you that is I know the State is 
very interested in making it clear, as I am, that there is a 
strong willingness already proven by the investment made to 
create this partnership, if it is desired as one of the 
locations.
    Does that make a difference or not?
    Ms. Ferguson. When the site survey teams go out, they look 
to see how you can operate on the ground, what is required at 
each one of those installations.
    So in this case, each one of those five installations, what 
would be required to operate the F-35. They look at facilities. 
They look at infrastructure. They look at housing. They look at 
access to ranges and airspace.
    And then as the Chief and Secretary make their decisions, 
there are other considerations that they take into 
consideration as well.
    I did also want to emphasize that the team that works on 
this never provides a recommendation to the Chief and 
Secretary. When they make a decision, they sit in a room, not 
unlike this, and they have the advice of all their senior 
folks, including the Commander. And so it is a very open and 
deliberate process, and they take the decisions pretty 
seriously, because, as you know, it is a big decision for the 
Air Force and the community.
    Senator Begich. That is right.
    Ms. Ferguson. So they look at the results of the site 
surveys, as well as take other considerations into account.
    And once that is done, we will brief them to the oversight 
committees and the members, and we will show you exactly what 
they used to make their decision.
    Senator Begich. Also, one of the conversations you just had 
on section 331, I know that community-DOD partnerships for the 
331s, there are some challenges trying to get through some of 
those projects. Are there additional tools you need from us? I 
know there are some legal issues that are surrounding this 
right now.
    Are there some additional tools you might need from us or 
you can get to the subcommittee at some point that might assist 
you in moving those kind of efforts forward?
    Ms. Ferguson. We are looking at that right now. But yes, 
that would be very helpful, because we have discovered that 
there are some things----
    Senator Begich. Legal hurdles.
    Ms. Ferguson. Some legal hurdles. If those could be 
changed, it might make it a lot easier for us to execute these 
agreements.
    Senator Begich. Because I know in the Fairbanks region, 
there are some that are pending, and I know there is some 
strong interest.
    If you could put that on your list, I am sure we would all 
be very interested in knowing that so we can assist in that 
effort.
    Last question, and then a statement. The question is, I 
know there are some efforts on housing base allowances that are 
going to potentially shrink, and I know it has impact.
    In Alaska, we have a lot of public-private partnerships on 
bases, which you are responsible for.
    So have you sort of looked at what that could do to those 
financial arrangements we have--and I say ``we'' collectively--
have with these private developers that have these housing 
units on base?
    Will it be more money out of the pocket of our service men 
and women? And the reason I throw this on the table, I will 
just give you one statistic, in JBER, in Anchorage, on-base 
elementary schools, 39 percent of those students are on the 
free lunch program, which means they are living below the 
poverty level. And the DOD wants to mess with the commissary 
costs in JBER and lower those, so, therefore, it will cause 
more costs out-of-pocket. Will this increase service men and 
women family costs out-of-pocket? That's the question.
    You don't have to answer right now, but if you could get me 
something, unless you know it? I am very concerned. When you 
have almost 40 percent of the student population on-base living 
below the poverty line, and then you take two issues--food and 
housing--and make them pay more, there is something not right 
with the system. So would you look at that for me?
    Ms. Ferguson. Will do. And we will take that for the 
record.
    [The information follows:]

    In our housing privatization projects the rent paid by service 
members is equal to their basic allowance for housing (BAH); Rent = 
BAH. Any reduction in BAH will reduce project income. Project owners 
will have to reduce expenses, on a base-by-base basis, to compensate 
for lower rents. Reductions in staff, residential services, deferral of 
maintenance and facility reinvestment, and other actions may also be 
considered.

    Certainly, as you know, there is a lot of analysis that has 
to go into that, as to how that is going to impact our housing 
privatization projects. And JBER is different from Eielson. So 
we are going to begin to look to see what the impact is on a 
project-by-project basis.
    Senator Begich. And last, and I know I am almost out of 
time here, so I will just make a statement. And that is, I know 
you are busy looking at energy issues and I know the Air Force 
base and the privatization issue.
    I am going to propose a study to the National Defense 
Authorization--I tried last year, but we ran out of time--to do 
an overall energy study for the Alaska region instead of by 
service, which is being done now. Let's look at a much broader 
perspective, because you all need energy to do the right thing 
there. And I am concerned that that project may not have a 
large view of the variety of energy resources.
    So I will just leave that with you as a thought, not a 
question at this time.
    Ms. Ferguson. Okay.
    Senator Begich. Thank you, Mr. Chairman, for the 
opportunity.
    Senator Johnson. Senator Johanns.
    Senator Johanns. Thank you, Mr. Chairman.
    Let me start out today and say welcome. We are glad to have 
you here.
    I also would like to say thanks really to the Air Force. 
You have displayed great commitment to the United States 
Strategic Command (U.S. STRATCOM) replacement facility in my 
State. It is under construction out at Offutt Air Force Base. 
The fiscal year 2015 budget requests $180 million. And this 
would be increment four of four for the facility. Needless to 
say, it is something I support.
    As you all know, U.S. STRATCOM is tasked with the vital 
roles of strategic deterrence, space operations, and cyberspace 
operations in defense of our Nation.
    So the need for this infrastructure, I think, has been 
evident for a long time, and I am glad we have been able to get 
it started a couple years ago.
    Could you just give us an update as to how you view that 
project going, and timeline and that sort of thing? Just bring 
us up-to-date on what you are seeing from your vantage point.
    Ms. Ferguson. Okay, thank you. And again, I appreciate the 
subcommittee support for this very important project. This is 
the fourth year we are asking for appropriation for that, and 
we do appreciate the support there.
    The construction is about 15 percent complete. They are a 
little bit behind schedule right now, but we anticipate that 
they will make that up. There were some groundwater issues 
initially that slowed the project down. We think we have a 
contractor recovery plan underway. And so we are not 
anticipating any further delays at this time.
    The current completion date is September 2016, and we 
currently are on track to meet that date.
    Senator Johanns. I have been onsite a couple times, 
actually. And every time I get a chance to get out there and 
just take a look, I am always accompanied by people who can 
kind of bring me up-to-date.
    From what I see, the activity has been good, and people are 
paying attention to timeline. They are paying attention to 
budget. Are you experiencing the same thing?
    Ms. Ferguson. We are. And there is a pretty senior 
executive steering group that is overseeing this both from 
Headquarters Air Force, Air Combat Command, and Headquarters 
Strategic Command. So there is a partnership of general 
officers and senior executives that are watching this very, 
very closely.
    There is a lot of interest in the Department of the Air 
Force and STRATCOM in making sure this finishes on time and on 
budget.
    Senator Johanns. Yes. We had a meeting before much started, 
in kind of the transition from Senator Nelson leaving and 
Senator Fischer coming on board. And we emphasized over and 
over again how important it was to deal with timelines, to deal 
with budget. So I am very, very happy to hear you say that.
    My hope is, at the end of this, we can all celebrate the 
fact that we hit the budget, we hit the timeline, and the 
building is up and going and doing the things that we want it 
to do.
    And as far as I can tell today, that still looks within 
reach.
    Ms. Ferguson. Thank you. And that is how we see it as well. 
We are going to continue to keep our eyes on that to make sure 
that it stays that way.
    Senator Johanns. Great. Well, I will wrap up with that.
    Just one last thing. If there is anything as this project 
is going along that you would like my Senate office to pay 
attention to, we are happy to do it. We are optimistic about 
this project, very, very satisfied that the project is up and 
going. We want to see it to the finish line successfully.
    Ms. Ferguson. Thank you.
    Senator Johanns. Thank you, Mr. Chairman.
    Senator Johnson. Thank you.
    I thank all of our witnesses for appearing before the 
subcommittee today. We look forward to working with you this 
year.

                     ADDITIONAL COMMITTEE QUESTIONS

    For the information of members, questions for the record 
should be submitted by the close of business on April 16.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
               Questions Submitted to Hon. Dennis McGinn
                Questions Submitted by Senator Tom Udall
    Question. I would like to say that the recent issues in the nuclear 
enterprise are very concerning. This is an important mission with 
little room for error. The Nuclear Weapons Center at Kirtland Air Force 
Base, as you know, plays an important role in this mission. And I would 
like to express my support for the efforts to reinvigorate the 
professionalism that is needed to carry out this mission. Furthermore, 
their current MILCON project is proceeding well. In your opinion, what 
other current and future projects are important for maintaining and 
revitalizing the nuclear enterprise in both the Navy and the Air Force?
    Answer. The Navy is implementing Military Construction (MILCON) 
projects at Naval Submarine Base Kings Bay, Georgia and Naval Base 
Kitsap-Bangor, Washington that are critical to the nuclear weapons 
enterprise. The focus of MILCON efforts in Bangor is the construction 
of a second Explosives Handling Wharf and infrastructure and security 
improvements in support of the Transit Protection System, which 
protects SSBNs as they transit to and from their dive points. Phased 
nuclear weapons security projects are also being implemented to improve 
the waterfront security at both naval bases. Continued support of these 
and future nuclear weapons security projects is critical to maintaining 
a safe, secure and effective strategic deterrent. The following 
projects in the President's fiscal year 2015 budget request are needed 
to sustain the nuclear weapons enterprise in the Navy ($ million):
  --Fiscal Year 2015 P-990 Explosives Handling Wharf #2 (Inc. 4 of 4) 
        at NAVBASE Kitsap--Bangor Washington ($83,778)
  --Fiscal Year 2015 P-993 TPS Port Angeles Forward Operating Location 
        at NAVBASE Kitsap--Bangor Washington ($20,638)
  --Fiscal Year 2015 P-099 Nuclear Power Operational Support Facility 
        at Submarine Base (SUBASE) Kings Bay Georgia ($35,716)
  --Fiscal Year 2015 P-547 Ohio Replacement Power and Propulsion 
        Facility at Naval Support Activity (NSA) Mechanicsburg 
        Pennsylvania ($23,985)
  --Fiscal Year 2015 P-287 Missile Support Facility at Naval Support 
        Activity South Potomac Dahlgren Virginia ($27,313)
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                           futenma relocation
    Background: I am concerned that the aggressive construction 
schedule for the FRF at Camp Schwab may be unrealistic, particularly in 
light of the experience with at MCAS Iwakuni. Although Governor Nakaima 
signed the landfill permit last December, the re-election of Mayor 
Inamine in Nago indicates continued reluctance of some on Okinawa to 
the FRF plan.
    Question. Can you update the committee on the status of the Futenma 
Replacement Facility? What other legal and political challenges must be 
overcome before construction can begin? Is there an estimate of the 
cost of continued delays?
    Answer. There are currently no delays to the FRF construction 
timeline. Since 2006, the Government of Japan (GOJ) has funded 
approximately $340 million for projects on Camp Schwab related to 
preparing for airfield construction.
    In April 2014, the GOJ announced the awarding of eight contracts 
totaling $14.4 million using fiscal year 2013 funds for survey and 
design work for the FRF landfill. The GOJ is presently executing 
contracts for soil core samples along the shoreline. Water area 
security measures are currently being finalized and boring surveys are 
on schedule to commence in July 2014.
    Question. It has been reported that Mayor Inamine plans to block 
access to the port in Nago and to prohibit large construction and earth 
moving equipment from roads controlled by the city. Is there a 
contingency plan to allow landfill and construction work without access 
to facilities in Nago?
    Answer. The approval of the Camp Schwab/Henoko landfill permit on 
27 December 2013 by Okinawa Governor Nakaima was the last legal 
impediment to the construction of the airfield at Camp Schwab. Since 
that time the GOJ has developed primary, secondary, and tertiary plans 
for executing construction for multiple scenarios. A construction 
program of this magnitude routinely has contingency scenarios built 
into the planning and construction schedules.
    Although the Governor of Okinawa requested that flight operations 
at MCAS Futenma cease in 5 years, the current USMC and U.S. Forces 
Japan (USFJ) internal analysis indicates that the FRF will not be fully 
operational until 2022. However, it is our understanding that the GOJ 
is looking into ways to condense the timeline and is prepared to 
immediately execute the design of the seawall, landfill and other major 
civil projects/surveys necessary to support seawall and landfill 
construction.
    Question. In the event FRF continues to experience significant 
delays, is there space available at Kadena Air Base capable of 
supporting the Marine aviation mission currently at Futenma?
    Answer. Early in the process of identifying the optimal location in 
Okinawa, a relocation of all Marine aviation assets to Kadena Air base 
was fully considered. However, co-use of the airfield with the Air 
Force was deemed impractical for a number of reasons. The density of 
aircraft operations raised concerns with safety, command and control, 
force protection, and contingency operations support. At the time, the 
Commander for U.S. Pacific Command (USPACOM), the Commander for U.S. 
Forces Japan (USFJ), and the Commandant for the Marine Corps all 
recommended against the co-location of Marine and Air Force aviation 
assets on Kadena.
    In addition, projected flight patterns and noise pollution at 
Kadena would not be conducive to relocating Marine aviation there. In 
effect, relocation to Kadena would only transfer the political 
challenges of MCAS Futenma to a different location rather than provide 
an enduring resolution.
    In 2013, the Commander, USPACOM, reconfirmed the determination that 
it would be impractical to relocate Marine aviation assets to Kadena 
Air Base.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. The U.S. Army and the U.S. Coast Guard are both building 
new national museums. The National Museum of the U.S. Air Force is 
constructing a new 224,000 square foot building similar in size and 
shape to the museum's three existing hangars. The U.S. Navy intends to 
have a world-class museum and will consider all options, including 
relocation off of the Washington Navy Yard, to promote the protection 
and preservation of the collection of art, artifacts, and records 
contained in the National Museum of the United States Navy and to make 
the collection more accessible to the public. The Navy plans to take 
more concrete steps toward this vision in the future as the fiscal 
climate allows. What steps did the Navy take towards this vision in 
fiscal year 2014 and what steps does the Navy intend to take in fiscal 
year 2015?
    Answer. The Navy continues to explore options, including relocation 
to a new facility, to improve access to and environmental conditions 
within the National Museum of the United States Navy (NMUSN) on the 
Washington Navy Yard. In fiscal year 2014, the Navy prepared three 
studies to further analyze a potential relocation of the NMUSN. The 
first of these--Business Case Analysis III: Location Analysis--
considered potential sites in a geographical context to identify the 
best city site for the NMUSN. After down-selecting from 18 cities with 
historical connections with the Navy and/or a substantial target 
audience, the study analyzed the viability of seven cities: San Diego, 
Boston, Chicago, New York City, Philadelphia, Norfolk, and Washington, 
DC.
    The second study--The Northwest Corner Bottom Line Business Case 
Analysis--identified potential capital and real estate costs associated 
with the option to locate the NMUSN at the Southeast Federal Center 
adjacent to the northwest corner of the Washington Navy Yard. In the 
third study--The National Museum of the United States Navy Relocation 
Study--the Navy prepared an estimated cost of packing and transporting 
the existing NMUSN collection from its current location to potential 
sites within the Washington, DC area. This study provides the Navy with 
a comprehensive logistics plan for any potential relocation of the 
NMUSN to a new facility.
    These studies will further inform Navy leadership as it continues 
to consider the future of the NMUSN and any potential relocation to a 
new facility.
    Question. The Naval Inspector General found in their December 2011 
report that the, ``Naval History & Heritage Command (NHHC) facilities 
and offices at the Washington Navy Yard are inadequate to support the 
command's mission of historic preservation and the administrative 
requirements of the staff. NHHC facilities do not meet temperature and 
humidity control requirements to preserve the Navy's historical 
archives and artifacts.'' What are the integrated set of facility 
requirements that have resulted from the NHHC Global Strategic 
Infrastructure Plan, NHHC Facilities Design Standards, and NHHC 
Commemorative Facilities Study? What resources does the Navy need to 
place against these facility requirements and how much does the Navy 
intend to place against them in fiscal year 2015? What is the projected 
completion date for all required facilities renovations or 
construction?
    Answer. The facility requirements and recommendations resulting 
from the NHHC Global Strategic Infrastructure Plan (GSIP) (Enterprise 
Plan) have become the critical guidelines used to justify projects that 
address IG deficiencies at HQ and in the field. In December 2013, the 
Navy issued a Facilities Criteria document ``Navy Museums and Historic 
Resource Facilities'' (FC 4-760-10N) which establishes uniform design 
and construction standards for Naval History and Heritage Command 
(NHHC) facilities including public museums, artifact storage and 
curatorial spaces, archives, secure archives, and administration. In 
consonance with these new facility criteria, a new Clean Agent Fire 
Protection system is being installed in NHHC HQ Rare Book Vault 
(Building 44). Installation of a new HVAC system in Building 108 will 
be completed this fall and a new system is scheduled to be installed in 
Building 57 in fiscal year 2015. Using information from the Enterprise 
Plan and the facility criteria, the Navy will consolidate and relocate 
NHHC Collections' storage facilities from three separate sites to a 
single DLA warehouse in Richmond that will provide the necessary space 
for processing, conservation, and proper storage of macro and micro 
artifacts and textiles in a controlled environment. In addition, a 
collection storage project is currently under construction at the Naval 
War College Museum (NWCM) in Newport, Rhode Island, and another should 
be awarded this fiscal year at the Navy's museum at Great Lakes Naval 
Station. The installation of a new HVAC system is also planned for 
award at NWCM in fiscal year 2014.
    It will cost approximately $250 million to bring all NHHC HQ 
facilities and museums up to applicable standards. Of this amount, $10 
million is programmed in fiscal year 2015. The projected completion 
date for all required facilities' renovations or construction will be 
contingent on future programming/budgeting cycles which will balance 
these requirements with all other DON needs.
                                 ______
                                 
            Questions Submitted to Hon. Kathleen I. Ferguson
                Questions Submitted by Senator Tom Udall
              holloman afb f-16 fighter group headquarters
    Question. With regards to Holloman Air Force Base, there is one 
project that is still missing from the official budget . . . the F-16 
Fighter Group Headquarters . . . which is included in the Opportunity, 
Growth and Security Initiative . . . and in fact 7 New Mexico Air Force 
projects are on this list. Does the Air Force still believe that the F-
16 Fighter Group Headquarters is important to construct in the near 
future?
    Answer. The F-16 Fighter Group Headquarters project at Holloman Air 
Force Base, New Mexico remains a priority for the Air Force given we 
have included it in the President's Future Years Defense Program (FYDP) 
as a fiscal year 2018 project. However, there are higher priorities in 
the earlier years of the FYDP.
    Question. Last year, the Air Force's budget stated that there was a 
``significant risk to installation sustainability over the long term'' 
if the Air Force continued funding at the increased\1\ [sic] 2014 
levels. And this year, the fiscal year 2015 MILCON budget proposal is 
even lower. If this subcommittee made allowances for greater military 
construction for pending priorities that are not in the budget request, 
would that help address those concerns?
---------------------------------------------------------------------------
    \1\ Note that the question was asked with ``increased'', but should 
read ``decreased.''
---------------------------------------------------------------------------
    Answer. Yes, it would help address those concerns. However, if 
additional funds were made available, there are higher priority Air 
Force requirements than military construction.
                     military construction funding
    Question. I previously asked the Army a question about whether they 
had the resources to help Holloman Air Force base work with White Sands 
Missile Range to deconflict airspace requirements and scheduling at the 
ranges . . . the answer I received was less than reassuring on their 
end. In your opinion what does the Air Force and the range need to help 
address some of these remaining issues to ensure our F-16's training 
mission gets the support it needs?
    Answer. The Air Force is aware of emerging challenges at White 
Sands Missile Range (WSMR) and we continue to work closely with the 
Army Test and Evaluation Command and WSMR leadership to synchronize our 
respective missions and achieve the maximum benefits from the available 
airspace. We recognize that test activities are very dynamic, are a 
high priority, and present difficult challenges to our training 
operations. We continue to evaluate requirements against available 
resources and are exploring all options to successfully accomplish our 
F-16 training mission at Holloman Air Force Base. A Memorandum of 
Understanding between WSMR and the 49th Wing and 56th Fighter Wing 
leadership was signed in June 2014, formally establishing scheduling 
agreements. This agreement helps delineate the procedures to facilitate 
the use of WSMR airspace. Our F-16 operations at Holloman Air Force 
Base are just now commencing, and we are closely evaluating whether the 
existing projections for airspace and range access are correct. We are 
working closely with WSMR, the Federal Aviation Administration and 
other agencies to review options in the event that additional airspace 
is required.
    Question. The New Mexico Air National Guard has become an important 
asset to the 58th Special Operations Wing through a classical 
association. I believe that the Air National Guard could play an even 
larger role supporting the air force mission at Cannon and Holloman Air 
Force Base. Do you believe that the Air Force has the facilities needed 
to allow the Guard to play a larger role at these bases, and if not, 
will the Air Force promise to work with the New Mexico National Guard 
to determine the best ways it can contribute to the active duty 
missions being conducted in New Mexico?
    Answer. The Air Force is dedicated to leveraging the talent and 
capabilities of the Air National Guard and the Air Force Reserve within 
the Total Force concept. If the Air Force determines the New Mexico Air 
National Guard can play a larger role at Cannon Air Force Base and 
Holloman Air Force Base, the installations will be evaluated to 
determine if the existing facilities are sufficient for the Total 
Force's requirements.
                  revitalizing the nuclear enterprise
    Question. I would like to say that the recent issues in the nuclear 
enterprise are very concerning. This is an important mission with 
little room for error. The Nuclear Weapons Center at Kirtland Air Force 
Base, as you know, plays an important role in this mission. And I would 
like to express my support for the efforts to reinvigorate the 
professionalism that is needed to carry out this mission. Furthermore, 
their current military construction project is proceeding well. In your 
opinion, what other current and future projects are important for 
maintaining and revitalizing the nuclear enterprise in both the Navy 
and the Air Force?
    Answer. The Air Force shares your concerns and has identified a 
total of 11 military construction projects in the fiscal years 2015-
2019 Future Years Defense Program totaling approximately $544 million 
in facility requirements directly tied to the nuclear mission.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
     housing privatization leases at scott air force base, illinois
    Question. I know you are aware of the tax issue between the State 
of Illinois and the project owner at Scott AFB over the housing 
privatization leases. If the project owner loses in court the entire 
housing project is at risk of possible default and collapse if a 
restructure agreement is not reached with the Air Force. Can you offer 
any insight into how the Air Force is positioned to assist the project 
owner in this restructure effort?
    Answer. The tax issue between the State of Illinois and the project 
owner at Scott Air Force Base (AFB), Illinois is not the sole issue 
causing the financial shortfalls the housing privatization project is 
experiencing. The Air Force and the project owner are currently 
discussing several potential options to financially restructure the 
Scott AFB project. The financial health of this project and the quality 
of life of our families living at Scott AFB are of great concern to the 
Air Force and we will continue to work with the project owner on 
potential solutions
                            charter schools
    Question. The budget submission references efforts to establish 
charter schools on base. Can you detail locations where the Air Force 
has charter schools on base and list potential locations where a 
charter school might be placed in the future?
    Answer. There are currently charter schools operating on Joint Base 
Andrews, Maryland; Beale AFB, California; Davis-Monthan AFB, Arizona; 
Little Rock AFB, Arkansas, and Vandenberg AFB, California. One is 
scheduled to open in 2014 at MacDill AFB, Florida and both Joint Base 
Charleston, South Carolina and Nellis AFB, Nevada have issued letters 
of intent. While Air Force installations potentially gain from the 
presence of a charter school on the installation, these educational 
activities do not fall within the authority of the Air Force. Instead, 
they are public schools chartered from the respective state educational 
authority to achieve learning objectives agreed upon by the State and 
charter school developers (who may be an educational group, a 
collection of parents, concerned communities, etc.) and operational and 
administrative processes follow State law. Air Force installation 
commanders are encouraged to support parental and community efforts to 
develop and enhance learning opportunities for all children and 
especially military connected students. Conversely, Air Force 
personnel, in their official capacity, should not initiate or sign as a 
participant in a charter school. However, installation commanders may 
sign on behalf of the Air Force with respect to any support agreement 
needed to memorialize various parties' roles and responsibilities.

                         CONCLUSION OF HEARINGS

    Senator Johnson. This hearing is recessed.
    [Whereupon, at 3:27 p.m., Wednesday, April 9, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
